<html>
<title> - FARMING, FISHING, FORESTRY AND HUNTING IN AN ERA OF CHANGING CLIMATE</title>
<body><pre>[Senate Hearing 113-763]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 113-763

                FARMING, FISHING, FORESTRY AND HUNTING 
                     IN AN ERA OF CHANGING CLIMATE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON GREEN JOBS 
                          AND THE NEW ECONOMY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










       Available via the World Wide Web: http://www.gpo.gov/fdsys

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-803 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              

















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

             Subcommittee on Green Jobs and the New Economy

                     JEFF MERKLEY, Oregon, Chairman
THOMAS R. CARPER, Delaware           ROGER WICKER, Mississippi
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 3, 2014
                           OPENING STATEMENTS

Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     1
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     2
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     8
Tester, Hon. Jon, U.S. Senator from the State of Montana.........    14
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island, prepared statement.....................................   251

                                WITNESSES

Ashe, Hon. Dan, Director, U.S. Fish and Wildlife Service.........    17
    Prepared statement...........................................    19
Walls, James, Executive Director, Lake County Resources 
  Initiative.....................................................    34
    Prepared statement...........................................    37
    Responses to additional questions from Senator Sessions......    40
Pope, Clay, State Association Executive Director, Oklahoma 
  Association of Conservation Districts..........................    41
    Prepared statement...........................................    44
Cohen, Daniel, Owner, Atlantic Capes Fisheries...................    52
    Prepared statement...........................................    54
South, David, Ph.D., Emeritus Professor, School of Forestry and 
  Wildlife Sciences, Auburn University...........................    90
    Prepared statement...........................................    92
    Responses to additional questions from:
        Senator Vitter...........................................   124
        Senator Sessions.........................................   133
Legates, David R., Ph.D., CCM, Professor, Department of 
  Geography, University of Delaware..............................   138
    Prepared statement...........................................   140
    Responses to additional questions from:
        Senator Vitter...........................................   165
        Senator Sessions.........................................   171

                          ADDITIONAL MATERIAL

Minding the Campus article, May 19, 2014, Climate-Changing 
  Shenanigans at the U. of Delaware, posted by Jan Blits.........   256
Wall Street Journal article, May 26, 2014, The Myth of Climate 
  Change `97%' by Joseph Bast and Roy Spencer....................   258
Testimony by Richard S.J. Tol, May 29, 2014......................   261

 
  FARMING, FISHING, FORESTRY AND HUNTING IN AN ERA OF CHANGING CLIMATE

                              ----------                              


                         TUESDAY, JUNE 3, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Green Jobs and the New Economy,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Building, Hon. Jeff Merkley (chairman 
of the subcommittee) presiding.
    Present: Senators Merkley, Wicker, Whitehouse, Sessions, 
Inhofe, and Vitter.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. I call this hearing of the Green Jobs and 
the New Economy Subcommittee to order.
    Just yesterday, the President made a historic announcement 
moving forward with the proposal to tackle the single largest 
source of climate pollution in the United States: coal-fired 
power plants. This action could not have come too soon. What we 
are seeing already are real impacts of climate change, impacts 
that are being felt today on the ground. It is no longer a 
conversation about hypothetical events or computer models, what 
might or might not happen in the future, it is a conversation 
about the real costs to our natural resources in our rural 
communities and our economy right now.
    A few weeks ago, the National Climate Assessment came out 
with the most up-to-date review of climate science and 
particularly focused on the impacts we were already seeing 
across the United States. This report combines the expertise of 
dozens of the most preeminent scientists to conduct a 
comprehensive review of the scientific literature to illuminate 
both the climate impacts we are starting to see today and the 
types of impacts we can expect to see in coming years.
    What was notable on that report is how much impact we are 
already seeing in sectors that are critical to our rural 
communities and their economies, such as farming, fishing, 
forestry, and hunting.
    These impacts aren't always straightforward, as we will 
hear from some of our witnesses today. Climate change is one of 
many challenges facing these sectors. It is playing an 
increasingly important role in making existing challenges such 
as drought and disease even worse. The long term trend toward 
warmer and shorter winters is allowing more insects like bark 
beetles to survive the cold, causing massive tree die-outs in 
forests across the country and making forests more susceptible 
to larger and more intense wildfires.
    For a State like Oregon, where so much of our rural economy 
depends on a vibrant forest sector, this trend is very 
troubling. The warmer, shorter winters are also decreasing the 
amount of snow pack, leaving less water for farmers to use 
during the growing season. In Oregon, the snow melt is a 
critical component of irrigation water since so little rain 
falls during the summer months. This year, for example, Klamath 
County in Oregon has seen one of the worst droughts on record, 
after record droughts in 2001, 2010 and 2013, demonstrating the 
devastation we can expect to see as severe and intense droughts 
becoming more common.
    The decrease in snow pack also means that our streams are 
warmer and drier during the summer months, which is impacting 
freshwater fishing. Less snow melt and hotter summers are 
expected to contribute to a significant decline in salmon 
populations.
    Our ocean fishermen have been dealing with the effects of 
climate change, too. Warming oceans are causing fish to 
migrate, and oceans are absorbing much of the carbon dioxide 
emitted into the atmosphere. This causes water to gradually 
become more acidic, which has had devastating impacts on 
northwest oyster farmers whose oyster seeds, which are the baby 
oysters, are dying in those more acidic waters.
    This is why we are holding a hearing today, to hear 
directly from those who work in these sectors, and whose 
livelihoods depend on us taking strong action to prevent the 
impacts of climate change from getting worse.
    The witnesses we have invited here to testify are people 
who have first hand experience working in the farming, fishing, 
and forestry sectors. We will also hear from two of our 
minority witnesses who will present their viewpoints as climate 
change skeptics.
    Finally, I would like to extend a special gratitude to our 
colleague, Senator Jon Tester, who is here to speak on this 
subject. Not only is the Senator from a State that will be 
impacted by climate change, but he is a farmer himself. We will 
ask Senator Tester to speak as soon as the opening statements 
are completed. With that, I will turn this over to Ranking 
Member Senator Wicker to give his opening remarks.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you very much, Mr. Chairman, for 
holding this hearing. I will note that it is our first hearing 
together as a subcommittee. I also want to thank all of our 
witnesses for being here today, our first witness, and the 
panel that will follow. As we discuss the impact of climate on 
farming, fishing, forestry, and hunting, we must not neglect 
the effects that draconian climate regulations would have on 
these industries.
    Yesterday, as part of the President's climate action plan, 
EPA Administrator Gina McCarthy announced a new set of rules to 
regulate carbon dioxide emissions from existing power plants. 
These regulations would have little effect on the climate, but 
the rules would have a negative effect on the livelihood of all 
energy users, including farmers, foresters, and fishermen, who 
are the focus of today's hearing. The President's costly 
regulations mean that farmers who irrigate their crops by pump 
would face higher utility bills. Foresters would pay more for 
electricity to turn their timber into building materials and 
paper, products that are essential to our economy.
    These industries already face a myriad of challenges in a 
difficult economic environment, but at what cost are we going 
to hurt these economic sectors in the pursuit of aggressive, 
but dubious, climate regulations?
    The costs to these industries are sure to go up. The 
benefits are not. Farmers are said to be on the front line of 
climate change because they are most likely to be affected by 
altering weather patterns. In a recent scientific, peer 
reviewed study that examined U.S. crop producers' perceptions 
of climate change, researchers found there is little belief 
among farmers that climate change will have a negative effect 
on crop yields.
    In fact, in my home State of Mississippi, corn and soybean 
yields are at record high levels. Farmers have been managing 
their crops effectively and adapting to variable climate 
conditions for generations and generations. This is nothing 
new. Unfortunately, this generation will now have to cope with 
high electricity costs because of questionable climate 
regulations. For farmers who properly manage their land, a 
changing climate is not the problem, but burdensome regulations 
that increase the cost of farm production are.
    America's forests provide many benefits and services to 
society, including clean water, recreation, wildlife habitat, 
and a variety of forest products. Need we be reminded that 
carbon dioxide is required for photosynthesis, the process by 
which these forests use sunlight to grow? Plants tend to grow 
better under conditions of higher CO<INF>2</INF> levels. 
Scientists have dubbed this effect CO<INF>2</INF> 
fertilization.
    The economic impact of our forests must not be overlooked. 
Forestry in Mississippi is a $14 billion industry and supports 
more than 63,000 full- and part-time jobs. Healthy, productive, 
and well-managed forests cover more than 60 percent of my home 
State. These healthy forests support industry that employs 25 
percent of Mississippi's manufacturing workforce. Given the 
current depressed market for forestry goods, higher prices for 
electricity would only worsen industry problems for foresters 
who properly manage their trees. Changing climate is not the 
problem, but onerous regulations that increase the cost of 
forestry production are.
    I am struck, Mr. Chairman and my fellow Senators, with the 
increasing number of academics who are willing to come forward 
and say yes on some of this conventional wisdom. They are 
skeptics. I ask to put into the record, at this point, Mr. 
Chairman, a transcript of an interview yesterday afternoon on 
WTOP with Dr. Peter Morici, a University of Maryland professor 
at the Robert H. Smith Business School.
    Senator Merkley. Without objection.
    [The referenced information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
  
    Senator Wicker. Let me just point out, in the final minute, 
Mr. Chairman, Professor Morici says a lot of this, speaking of 
the President's new plan yesterday, is going to needlessly 
raise costs, but more importantly, much more importantly, the 
President's goal, the amount of carbon dioxide we will save, 
China makes up with additional emissions in only 18 months. 
Because, I want to point out, ``Remember CO<INF>2</INF> 
emissions are very different than smog, and the 
environmentalists right now want to confuse that issue, saying, 
you certainly don't want smog and asthma and things like 
that.'' CO<INF>2</INF> emissions are about the greenhouse 
effect and rising temperatures.
    When asked about the thought that if the U.S. doesn't do 
something, countries like China and India definitely won't, 
Professor Morici says, ``Well, we are already doing something, 
and China is not joining us.'' He says, ``It is a fool's 
journey into the night to think that setting a good example 
will cause China to follow.'' The anchor says, ``Well, we need 
to do something,'' and Professor Morici says, ``We are doing 
something, but the trick is to do something that matters, that 
has an effect. The President is touting this as a solution, and 
it is not.'' Finally, he concludes, ``We are going to have to 
deal with the rising sea level whether we do this or not. The 
question is: will we have an economy that can bear what will be 
the truly large burden, much larger than this one?''
    I thank you again, Mr. Chairman, for holding this hearing. 
We should be creating jobs and strengthening the economy, not 
hindering it.
    [The prepared statement of Senator Wicker follows:]

                    Statement of Hon. Roger Wicker, 
               U.S. Senator from the State of Mississippi

    I would like to thank the Chairman for holding this 
hearing--our first together. I would also like to thank the 
witnesses for being here today. I look forward to your 
testimony this morning.
    As we discuss the impact of climate on farming, fishing, 
forestry, and hunting, we must not neglect the effects that 
draconian climate regulations would have on these industries.
    Yesterday, as part of the President's Climate Action Plan, 
EPA Administrator Gina McCarthy announced a new set of rules to 
regulate carbon emissions from existing power plants. Although 
these regulations would have a dubious effect on changing the 
climate, I am fearful the rules would have a negative impact on 
the livelihood of all energy users, including the farmers, 
foresters, and fishermen who are the focus of today's hearing.
    The President's costly regulations mean that farmers who 
pump irrigate their crops would face higher utility bills. 
Foresters would pay more for electricity to turn their timber 
into building materials and paper, products that are ubiquitous 
in our economy. These industries already face myriad challenges 
in a difficult economic environment. At what cost are we going 
to hurt these economic sectors in the pursuit of aggressive 
climate regulations? The costs to these industries are assured 
to go up, but the benefits are not.
    Farmers are said to be on the ``front line'' of climate 
change because they are most likely to be affected by altering 
weather patterns. In a recent scientific peer reviewed study 
that examined U.S. crop producers' perceptions of climate 
change, researchers found that there is little belief among 
farmers that climate change will have a negative effect on crop 
yields.
    In fact, in my home State of Mississippi, corn and soybean 
yields are at record high levels. Farmers have been managing 
their crops effectively and adapting to variable climate 
conditions for generations and generations. This is nothing 
new. Unfortunately, this generation will have to cope with 
higher electricity costs because of questionable climate 
regulations. For farmers who properly manage their land, a 
changing climate is not the problem, but burdensome regulations 
that increase the cost of farm production are.
    America's forests provide many benefits and services to 
society, including clean water, recreation, wildlife habitat, 
carbon storage, and a variety of forest products. I would also 
remind my colleagues that carbon dioxide is required for 
photosynthesis, the process by which these forests use sunlight 
to grow. Plants tend to grow better under conditions of higher 
CO<INF>2</INF> levels. Scientists have dubbed this effect 
``CO<INF>2</INF> fertilization.''
    The economic impact of our forests must not be overlooked. 
Forestry in Mississippi is a $14 billion industry and supports 
more than 63,000 full- and part-time jobs. Healthy, productive, 
and well managed forest covers more than 60 percent of my home 
State. These healthy forests support industry that employs 25 
percent of Mississippi's manufacturing workforce. Given the 
current depressed market for forestry goods, higher prices for 
electricity would only worsen industry problems. For foresters 
who properly manage their trees, a changing climate is not the 
problem, but onerous regulations that increase the cost of 
forestry production are.
    In a difficult economic environment, the stakes are high 
for responsible policymaking--not impractical and misguided 
climate regulations. We should be creating jobs and 
strengthening the economy, not destroying it. Our hardworking 
farmers, foresters, and fishermen deserve it.
    I would like to thank our witnesses for testifying today. 
We look forward to hearing your views.

    Senator Merkley. Thank you.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    The conversation is not over. Good discussions need to be 
held; we need to ask ourselves what the true facts are, and we 
will do so. A growing number of scientists are demonstrating 
the falsity of many of the allegations that have been made as a 
result of warming temperatures and climate change. We simply 
have to be honest about that. Our economy is exceedingly 
fragile. It is very fragile.
    The average median income for working Americans today is 
$2,400 below what it was in 2007. We have fewer people working 
today than we had in 2007. Unemployment remains high, and we 
simply cannot regulate an imposed cost on American industry to 
the extent to which they cannot compete in the world market and 
damage our economy. Only a healthy economy in free nations has 
the environment consistently improved. Unhealthy economies in 
totalitarian countries have the worst record by far of 
environmental issues.
    Mr. Chairman, I see Mr. Ashe will testify. I am pleased in 
his written statement; at least, he did not repeat his previous 
statement before this committee that we are having more 
frequent and severe storms, flooding, droughts, and wildfires. 
Now, that is not sod. When I asked him about it, he gave 
anecdotes. He submitted not one scientific report to justify 
that statement which many scientific reports rejected. 
President Obama has twice claimed that temperatures are rising 
faster than predicted, even over the last 10 years, he said. In 
fact, temperatures have flattened over the last 15 years, well 
below the average computer models for environmental 
expectations.
    All I am saying is, I don't know, maybe this is a temporary 
pause in some of the climate change that has been projected. 
Maybe temperatures will rise again, but they are not rising 
like the experts predicted today, and we have more scientists 
like Dr. Smith of Forestry today that will puncture some of the 
irresponsible statements that are being made about forestry.
    Mr. Chairman, I grew up in the country, near Vredenburgh, 
Alabama, and you understand the timber industry. I guess the 
sawmill in Vredenburgh was one of those classic, big sawmills. 
I saw logs hauled in front of my house all the time, but all 
that land has been replanted. It is being managed exceedingly 
well today; farmers and timber owners are managing better than 
ever. Scientifically, in each one of those trees, as they grow, 
they suck carbon out of the atmosphere; a dead and dying tree, 
once it dies, it emits carbon back into the atmosphere. 
Harvesting it and making it this wood and putting it in this 
building for a hundred years, has reduced carbon in the 
atmosphere. Wood and forests are one of the very best ways we 
can reduce CO<INF>2</INF> in the atmosphere. It just is, so I 
feel strongly about that.
    With regard to hunting and wildlife, behind my house was a 
little creek. I calculated one time that I spent a year of my 
life in and around that creek, swimming in it, playing in it, 
fishing in it. Behind that creek, there are miles of just 
basically forest. We saw very few deer and very few turkeys. In 
Alabama today, you visit people in my area of the State and 
talk to friends and you leave your home at night and they will 
say, watch out for the deer. Deer are everywhere; they are 
eating people's gardens. They are almost a pest, because of 
better management, or I don't know why. People are hunting 
better, they are managing their lands better, and we have a 
clear, without a doubt, increase in game in Alabama today, and 
I think throughout the rest of the country.
    So we have made a lot of progress; we need to continue to 
make progress. I look forward to the hearing today, and I have 
another hearing in Judiciary involving the amending of the 
First Amendment to limit people's ability to speak out in 
elections, so I am going to oppose that in a little bit. Thank 
you, Mr. Chairman, I appreciate this good hearing.
    Senator Merkley. Thank you, Senator.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I have to tell you, Senator Sessions, that my wife is upset 
because the deer are eating her begonias. You know my wife well 
enough to know that if she's not happy, I am not happy, so I 
have a stake in this.
    [Laughter.]
    Senator Inhofe. First of all, I am glad that Clay Pope is 
here from Oklahoma. I appreciate your coming, Clay; you and I 
have worked together with Frank Lucas on some of our small dam 
rehabilitation projects, and I look forward to hearing your 
testimony, although I have already read it and I won't be able 
to stay for it. That does not mean I don't love you, anyway.
    All we talk about around here since Barbara Boxer became 
chairman of this committee is trying to make people believe 
that the world is coming to an end. This is the 31st, 31st, 
hearing this committee has had, I am talking about the whole 
committee now, on global warming since Senator Boxer came in as 
Chairman, and with each one, the polling data has declined. It 
started off as a No. 1 or No. 2 issue. The last Gallup poll 
said it was number 14 out of 15.
    I have to say that I know Oklahoma's global warming 
regulations are no friend of farmers. It is interesting that 
the title of this hearing is Farming, Fishing, Forestry, and 
Hunting. With farming, you can come to Oklahoma and talk to 
farmers, and they will tell you that this is really a crisis 
that we are in the middle of right now, considering all these 
regulations. In fact, I am going to quote Tom Buchanan; he is 
president of the Oklahoma Farm Bureau. He told me just 
yesterday, ``They will have a devastating effect if these 
regulations go into effect on the farmers of rural Oklahoma. It 
will be our No. 1 concern and No. 1 issue.'' That is the 
Oklahoma Farm Bureau that is speaking.
    Let me express my concern with the EPA's just announced 
regulations. For existing plants, and we understood our new 
plants, that was a little bit different, that was very costly, 
but existing would be even more so. The figures that we have is 
that it would require power plants around the country to reduce 
their greenhouse emissions by 30 percent to 2005 levels. We 
have done our own study for a long period of time going all the 
way back to right after Kyoto was never submitted for 
ratification. We had found that the cost of it, and this comes 
from Wharton School, it comes from MIT, it comes from Charles 
Rivers Associates, is between $300 billion and $400 billion a 
year. That would be the largest tax increase in history.
    We know that the Chambers came out with the amount of money 
it is going to cost in jobs and all that. For decades, the 
environmental left has pushed to enact the cap and trade, and 
again, Congress has rejected it. We have tried, we have had 
this before Congress now about 12 times; it has been rejected 
every single time, and each time, by a larger margin. The first 
one was 2003; that was the McCain-Lieberman bill, and 2 years 
later, it was rejected by an even larger amount.
    So it used to be the No. 1, and now it is the No. 14 
concern, and it is a very light concern. Regardless, the 
President is pushing this regulatory thing.
    We don't have to look any further thank Obama's model to 
come up with a conclusion. He talks about his green dream being 
Germany. You and I were just there, not long ago, I say to 
Senator Sessions, and that country is about 3 years ahead of us 
in coming through with all these regulations; had it continued 
a war in fossil fuels like our President Obama has had since 
he's been in office. Their costs for electricity have doubled 
since they started that program 3 years ago. Doubled. It is now 
three times the cost per kilowatt hour of what we have here in 
this country.
    We know the American people know that the rule will be 
expensive, and it is very alarming that we have to do this.
    To stay within my timeframe, I am going to have to submit 
the whole statement for the record. If this is true, if we are 
now in a spell, in a period of time, 15 years, where there has 
been no increase in temperature, and they are now saying that 
this might be the coldest year in the weather the year. All 
that is a matter of record, then why does this all of a sudden 
surface as an issue? I will tell you why it surfaced. There's a 
guy right here, his name is Tom Steyer. He has come out and he 
has documented that he is a multi-billionaire, he is going to 
put a hundred million dollars into the legislative process to 
try to resurrect global warming as an issue. Fifty million of 
this is his own money, and he'll raise the other $50 million.
    And I can tell you right now that it is not going to work. 
I know it is a lot of money, and it is going to candidates who 
are going to be supporting global warming and all that stuff, 
so we know that it is going to have an impact. And it is a lot 
of money, but the people of America won't buy it. I would say 
this: I have already made an announcement, Mr. Chairman that, 
and there's a possibly I could be chairing this committee 
again, that when these regulations are finalized, I am going to 
offer a CRA, Congressional Review Act, on each one of them. 
Because that is the only way that we can have people get on 
record of either supporting or rejecting this. I have a feeling 
that we are going to be able to stop it in spite of $50 
million.
    By the way, I ask unanimous consent for this article to be 
put in the conclusion of my opening statement. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    First, I'd like to say that it is good to see Clay Pope 
here today. He and I have worked closely together with 
Congressman Frank Lucas on the small dam rehabilitation 
program, which helps ensure the ongoing operation of important 
flood control structures and dams throughout Oklahoma.
    This is the 31st hearing this committee has had on global 
warming since Senator Boxer became chairman, and with each one 
the polling shows that the American people care less and less 
about the issue.
    I have to say that I know Obama's global warming 
regulations are no friend of farmers. Tom Buchanan, president 
of the Oklahoma Farm Bureau told me just yesterday that they 
``will have a devastating impact on farmers and rural 
Oklahomans.''
    Let me express my concern with the EPA's just announced 
greenhouse gas regulations for existing power plants.
    This rule will require power plants around the country to 
reduce their greenhouse gas emissions by 30 percent by 2030 
compared to 2005 levels, and it is going to come at an enormous 
cost. It's a form of cap and trade, which we all know costs 
between $300 billion and $400 billion per year.
    The Chamber of Commerce recently conducted a study on a 
similar design of regulations and concluded they would cause 
the loss of $51 billion in GDP and 224,000 jobs each year.
    For decades, the environmental left has pushed for the 
enactment of cap and trade legislation, but time and again 
Congress has rejected it. And it's no wonder--Americans rank 
climate change as the 14th most important issue out of 15.
    Regardless, the President is pushing the regulatory 
construct of a cap and trade program he couldn't implement 
legislatively.
    We don't have to look any further than Obama's model: 
Germany, to see where this path leads. Germany has pushed 
aggressive policies that are taking their nation away from 
traditional fuels and nuclear power and toward alternatives. 
Now they're trying to reverse course, but it's already too 
late. Germany has doubled the cost of electricity and prices 
are 300 percent higher than they are here in the United States. 
EPA's rules will push us in the same direction.
    The American people know that this rule will be expensive, 
which is why the President is pivoting to tout the rule's 
benefits to human health. But this is especially alarming 
because EPA has itself admitted that greenhouse gases ``do not 
cause direct adverse health effects such as respiratory or 
toxic effects.''
    To make matters worse, the new greenhouse gas regulations 
will not do anything to mitigate global CO<INF>2</INF> levels. 
We know this because Lisa Jackson, the President's first EPA 
Administrator, told us at this committee that ``U.S. action 
alone will not impact world CO<INF>2</INF> levels.'' So it is 
the largest tax increase in history with no benefit.
    Between 1998 (which is about the same time the Senate began 
debating global warming) and 2013, there has been no increase 
in global surface temperatures. No one disputes this; it has 
been cited by the IPCC, Nature magazine and the Economist.
    Normally, that would make me wonder why the President is 
pushing regulations. But then I remember Tom Steyer, the new 
poster child of the environmental left. He's the one who 
promised to direct $50 million of his own money try to 
resurrect the dead issue of global warming. That's a lot of 
money, but the American people won't buy it.
    I've already announced that I will file a CRA on all the 
onerous regulations once they are finalized, and I have a 
feeling that next year we'll have the votes to do it.

    [The referenced article follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    
    Senator Merkley. Thank you, without objection, your time 
has expired.
    We are now going to hear from Senator Tester. We are 
delighted to have you with us today, both in your roles of U.S. 
Senator and observer of effects on the ground at Montana and as 
a generational farmer.

             OPENING STATEMENT OF HON. JON TESTER, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Tester. Thank you, Chairman Merkley and Ranking 
Member Wicker.
    I would just like to say before I get into my prepared 
remarks, I don't know Tom Steyer from a bar of soap, but I 
would be more than happy to work with anybody on the roster 
today or anybody else to put some transparency on the dark 
money that comes under these elections. I know this isn't a 
hearing about elections and dark money, but if we want to save 
our democracy, I think that is the first step. I think that we 
could really get to the bottom of a lot of this stuff that is 
going on as far as influencing our political agenda here in 
Washington, DC.
    Senator Inhofe. Since my name was used, I can react. This 
isn't dark. This is light. This is something that everybody 
knows. It is out there, it is been in all the publications. 
That means that much to some people. I just want to clarify 
that.
    Senator Tester. Then let's get rid of that and the dark 
money, too.
    Mr. Chairman, I first of all appreciate your having me here 
today, along with Ranking Member Wicker. It feels like we 
should be on Crossfire, Roger, but we will do it here. I am not 
a lawyer, I am not a scientist, I am a U.S. Senator, but more 
importantly, I am a farmer. The impacts of climate change are 
felt far and wide and I believe we need to take responsible 
steps to mitigate the impacts. What those steps are, some came 
out by the EPA yesterday of some folks who have some other 
ideas. I am more than happy to listen to them. The EPA released 
a proposal for reducing carbon emissions from existing power 
plants. They went with a State-based solution. I think that is 
smart to our problems and I will work to ensure this proposal 
works for Montanans in my home State.
    I think refusing to act to protect clean air, clean water, 
is not a viable option. I think in the long term, and in the 
short term, it is going to cost jobs, and a way of life. As I 
said a minute ago, I am a third generation farmer. I farm in 
north central Montana. I have seen the impacts of climate 
change first-hand. This does not mean I have people that farm 
the land; this means that I do it with my wife. We finished 
seeding 2 weeks ago last Saturday.
    This piece of land was homesteaded by my grandfather, and 
we have farmed it for the last 40 years, my wife and I, my 
folks 35 years before that, and my grandparents 35 years before 
that. For the average American, particularly those of us from 
rural America the political conversation about climate change 
seems worlds away. For us, we have had warmer winters, we have 
had more extreme weather events, and they are already 
presenting new challenges for a way of life.
    Now, do I say those statements because I read an article in 
some magazine? No, I say it because this is what I have seen on 
the farm. Let me give you an example. My dad farmed from 1943 
to 1978 and he never got a hailstorm that allowed him to 
collect more than his premium that he paid for that hail 
insurance. I have been hailed out four times in the last 35 
years. In this month alone, I should say last month, we are in 
June now, in the month of May, we have seen severe hailstorms 
all over the State of Montana totally irregular, totally out of 
character. These are storms that usually would hit in July or 
August. They are storms that break out windows of cars, that 
break fences, golf-ball sized hail or bigger. We have had up in 
my neck of the woods, just south of my place, to down in 
Billings, 230 miles south of that.
    At the turn of 1999 to 2001, we have a reservoir in a place 
my dad built in the late 1940s, and when he dug it, it filled 
up with water. In 1999, 2000, 2001, it dried up for the first 
time ever. If you take a look at what is going on as far as 
disaster assistance, and I appreciate some of the comments made 
by the Senators on the roster, and how this could affect our 
timber industry, how this could affect--I am talking about the 
new EPA regulations--how this could affect agriculture.
    Twenty years ago, the Forest Service spent 13 percent of 
its budget on fighting fires. And I can almost guarantee you 
that 20 years ago, that budget was a heck of a lot smaller than 
it is today, and they spent 13 percent of it. Now it is 40 
percent, and they still have to transfer half a billion dollars 
to cover costs. We are going to spend more than $15 billion on 
Hurricane Sandy relief efforts alone. I cannot think of a time 
we have had a hurricane hit New York. But it did with Sandy.
    I think today's hearing appropriately focuses on the 
experiences of farmers, ranchers, sportsmen and women that they 
are going through. And I think unfortunately the stories are 
often overlooked, underreported, or not reported at all. As a 
Nation, I think we need to start paying attention because these 
experiences are important if we are going to have a debate here 
in Washington, DC, and we are going to listen. Scientists tell 
us that climate change will bring shorter, warmer winters, and 
in Montana I see it. When I was younger, frequent bone chilling 
winds whipped across the prairies, 30 below for 2 weeks at a 
time was not an exaggeration. Now, it seems like if we have 
temperatures below zero, it is the exception.
    Do you want me to cut it off now, has this been 5 minutes 
already? My God. Sorry about that.
    Senator Merkley. It moves quickly, but I think we'd like to 
hear the rest.
    Senator Tester. OK, I apologize. I usually don't do this.
    Changes in the weather are forcing Sharla and I to look at 
different ways to operate our farm. To be honest with you, it 
is more difficult to figure out how. We haven't had a gentle 
rain this month of May. May is our wettest month. We finished 
planting those crops 2 weeks ago; they are not going to come 
out of the ground until we get some moisture. This is pretty 
abnormal. We have had droughts before, but this is abnormal 
stuff.
    The end of bitter winters, you think, gosh, it is less oil 
you are going to have to heat the house, or propane or whatever 
you are doing it. But the fact is those winters, and the lack 
of cold winters is a lot of little beasts called soft fly show 
up, and if you don't deal with the soft fly by adding another 
operation into how you, by swathing your wheat ahead of time, 
it can take as much of the crop as a hailstorm would, three-
quarters of it quite easily, and it is very time sensitive. The 
dead trees, many of which litter our national forests, as you 
go south of Flathead Lake, our forests are dead. Combining with 
historic drought and the wildfire season is longer and hotter, 
and it is rougher, and it costs more money to fight.
    These stories go down the list and I can just tell you that 
a couple years ago, we flew into, down around by Billings they 
were having record floods. The next year, the same people whose 
houses were underwater 1 year ago were being burned out the 
next. Same land. I don't know what is going on. I don't know if 
the Earth is getting warmer, I don't know if we are just in a 
cycle. But I can tell you, we can talk about all the things 
that need to be done here, and we can talk about how it is 
going to impact farmers and ranchers and sportsmen and all 
that, but if we end up passing on a climate to our kids that 
doesn't allow our kids to move forward with an economy that 
will help support, I think we are making a huge mistake.
    Now, last year we had a record crop. I can tell you right 
now it is going to be a pretty open summer for me if we don't 
get some rain pretty damn quick. Those kinds of variations in 
weather farmers always talk about as being normal, but this is 
above anything that I have ever seen in my 57 years on this 
place. By the way, I lived within a hundred miles of that place 
until I got this job. That is where I have spent my entire 
life. I have seen things happen in our climate that I have 
never, ever, ever seen before. Maybe it is just happenstance, 
maybe it is just choice, maybe if we ignore it, it will go 
away.
    But I think that if we can put a man on the Moon in 10 
years, we can certainly, going off of 2005 standards, reduce 
the amount of CO<INF>2</INF> going into the air by 30 percent 
in 25 years. I don't think it is that much of a stretch.
    Is coal going away? I don't think so. Not for a while. By 
2030, nearly a third of our energy will still be coal. I don't 
think that is a bad thing.
    So, Mr. Chairman, I appreciate your having this hearing. 
Ranking Member Wicker, you know that I have a tremendous 
respect for you, and I appreciate your contribution to this. I 
think we have a choice as people who serve in the Senate and 
the House. We can do nothing, or we can try to find solutions 
that help drive our economy forward and address issues of 
climate. If we do nothing, then we are wrong. Think about that. 
Just think about that. Means there is going to be a lot of 
hungry people.
    With that sobering thought, I will say thank you for the 
opportunity to testify. I very much appreciate it. I apologize 
I ran over by damn near double, but such is life. Ashe will 
have to cut his way back.
    [Laughter.]
    Senator Merkley. Senator, thank you very much for your 
testimony and giving this kind of direct, on-the-ground 
impression of these effects from hail, to fires to new pests to 
fewer, as you put it, bone chilling winds. Indeed the point of 
this hearing was to hear about effects on the ground, and we 
are going to now have witnesses to take a look across America. 
We really appreciate your giving your sense. Thank you.
    I would like to invite Director Dan Ashe of the U.S. Fish 
and Wildlife Service to join us. Dan has had a long career in 
public service. Prior to being director, he served as the 
Service's Deputy Director for Policy, as a science advisor, and 
as the Chief of the National Wildlife Refuge System. Mr. Ashe 
spent 13 years as professional staff on the former Committee on 
Merchant Marine and Fisheries in the House of Representatives 
and earned his graduate degree in Marine Affairs from The 
University of Washington.
    He is here today to give us a perspective on how we can 
expect to see climate change impacting our natural resources 
that are key to sustaining our fishing and hunting economies. 
It is terrific to have you. Welcome.

 STATEMENT OF HON. DAN ASHE, DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Ashe. Thank you, Chairman Merkley. Thank you, Ranking 
Member Wicker.
    It is a privilege to be here before this subcommittee, and 
thank you for the opportunity to testify today, really in 
behalf of America's sportsmen and women.
    As Americans, we are extraordinarily blessed and among 
these blessings are the natural landscapes and the healthy, 
abundant, native fish and wildlife that they support. Today's 
blessings are largely due to the leadership and the foresight 
of yesterday's hunters and anglers, good people, and 
professional managers who found the will and the ability to 
face the great challenges of their day. It may have been the 
Dust Bowl in the 1930s or pesticide use in the 1950s and 1960s 
and wetlands destruction in the 1970s and 1980s. These women 
and men found the will and the way to work with Congress and 
others to address those challenges.
    Today, I am really proud of my country and my colleagues in 
public service. In 1990, I was a committee staff member in the 
House of Representatives, worked with the House Marine and 
Merchant Fisheries Committee, the House Science Committee, and 
others, and this committee, in the Senate, to enact the Global 
Climate Change Research Program Act. A few years ago we worked 
with our State colleagues and other partners to develop the 
National Fish Wildlife and Plants Adaptation Strategy.
    Just recently, we saw the most recent National Climate 
Assessment, and then yesterday the EPA proposing reasonable and 
effective regulation of greenhouse gas emissions. So I feel 
like our country finally has the information and the 
wherewithal and is finding the will to address this great 
challenge.
    Hunting and fishing are vital components of the Nation's 
economy, especially in many rural areas. In 2011, Americans 
spent $145 billion on wildlife related recreation, nearly 1 
percent of the Nation's gross domestic product. The changing 
climate system is affecting hunters and anglers today, and it 
is darkening the prospects for hunters and anglers tomorrow. 
Shorter winters and earlier springs are disrupting delicate 
waterfowl migrations that have evolved over eons.
    Drought and water scarcity are increasing, jeopardizing 
populations of native fish and aquatic species in dozens of 
watersheds. Rising water temperatures are reducing habitat and 
altering breeding and spawning opportunities for many species 
of fish. Milder winters are increasing the prevalence of 
parasites and disease. That can have decimating effects on big 
game and forest habitat while enabling invasive species to 
spread into new areas and displace native wildlife.
    In Oregon and across the Pacific Northwest, climate change 
poses a major threat to salmon, a vital element of the region's 
economy and culture. A study published in 2013 concludes that 
coastal Coho salmon, a federally listed species, faces a 
significant climate driven risk to future sustainability. The 
scale and intensity of these current and future climate change 
impacts pose a serious threat to America's hunting and fishing 
traditions, and in turn to the benefits they provide to 
wildlife and people.
    Faced by these threats, the Administration is taking 
significant steps to ensure forward thinking and effective 
conservation of fish, wildlife, and plants and their habitats. 
This includes strategic planning through the President's 
Climate Action Plan, the National Fish Wildlife and Plants 
Adaptation Strategy, as I mentioned before, which we developed 
in cooperation with our State colleagues and tribal colleagues. 
Our survival and quality of life as a species in inextricably 
linked to the health of ecosystems which also provide clean 
air, clean water, food, shelter, and employment for the world's 
human population.
    How and whether we choose to respond here and now will 
determine the kind of world that we leave to our descendants, 
including whether we pass them a world that has a place for the 
great traditions of angling and hunting that we are able to 
practice today.
    Mr. Chairman, I want to thank you and the subcommittee for 
holding this hearing and calling attention to this important 
and pressing issue.
    [The prepared statement of Mr. Ashe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Merkley. Thank you. We will now have 5 minute 
periods for questions, comments.
    Just to summarize, what you are seeing from your expertise 
within the Fish and Wildlife Service are effects on the ground 
right now?
    Mr. Ashe. There is no doubt, Senator, that we are seeing 
effects of changing migration patterns in our waterfowl. We are 
seeing changing, increasing parasitism and decreasing 
reproductive rates in big game species like moose in the 
southern extent of their range. We are seeing rising water 
temperatures which reduces the habitat quality and availability 
for cold water fishes, so there is no doubt that we are seeing 
these impacts across the board.
    Senator Merkley. So let me take just a couple pieces of 
that. Let me start with the diseases related to big game.
    One of our Senators from New Hampshire was showing a 
picture recently of a moose with clumps on its back and pointed 
out that those big lumps, if you will, big black lumps, were 
actually big infestations of ticks. It was not cold enough to 
kill them, and they were carrying them year-round and this was 
resulting in both disease and a continuous loss of blood, if 
you will, from the ticks, and thus an impact on the moose 
populations.
    Is that one of the most prominent examples of impact on big 
game, or what else are we seeing?
    Mr. Ashe. We are definitely seeing that. We have a refuge 
in northern Minnesota, Agassiz National Wildlife Refuge. We 
have seen a 98 percent reduction in the moose population at 
Agassiz Refuge. We have seen a severe reduction in moose 
population throughout the State of Minnesota and so they are no 
longer hunting moose in Minnesota.
    The reason is the rising average temperature in the 
summertime places physiological stress on the animal, so they 
are not reproducing the way that they used to. Plus, we are 
seeing these pests, like ticks in New Hampshire, which are able 
to have multiple generations now during the spring, the summer, 
the fall, and fewer of them are being killed off by severe 
winters. So the animals are besieged by pests which put further 
physiological stress on the animals.
    So throughout the southern range of moose, we are seeing 
declines in the population. So in States like New Hampshire, 
decline in the population. That represents a lost opportunity 
for the American sportsman.
    Senator Merkley. So you said 98 percent loss, so 49 out 50 
of moose that were there before are gone. That is a pretty 
dramatic collapse. Is that over just a few years? Have we had 
seen that in earlier periods of just a few years of variation 
in temperatures, that the moose population crashed and then 
resurged, have we ever seen anything like this before?
    Mr. Ashe. We have not seen anything like this before. We 
have always had warm spells where you would have a summer of 
two consecutively where you would then have a depression in the 
population. They would rebound then as the weather returned to 
a normal pattern.
    But what we are seeing now is that steadily rising 
temperature in the summertime, so that the mean temperature in 
the summer is now putting physiological stress on the animals 
which is affecting their reproduction.
    Senator Merkley. Let me turn to your comments about 
migration patterns for waterfowl and specifically ducks. What 
is causing the ducks to modify their direction? Are the pools 
that they would land in disappearing, or what is going on?
    Mr. Ashe. Migratory birds like waterfowl again have a very 
delicate and refined migration pattern that has evolved over 
eons. So what we are seeing, look at it from the perspective of 
a hen mallard, who is leaving her wintering grounds, maybe in 
Yazoo National Wildlife Refuge in Mississippi, and is heading 
toward American prairies. She is stopping along the way, 
feeding and resting; she has a very narrow window.
    When she gets to the prairies, she is looking for a place, 
a small pothole or wetland to make a nest. In prehistoric 
times, if that didn't exist in South Dakota, she would go to 
North Dakota and then she would go to Saskatchewan, and she 
would fly until she found that habitat.
    What we are doing is, human development, we are 
constraining the habitat. So we have agricultural development, 
we have oil and gas, energy development, that is constraining 
her ability of habitats. So now she's much more restricted in 
terms of where she can go. So if she doesn't make that decision 
in about a 2-week window of time, she is not going to have a 
successful nesting season.
    What we are seeing is birds are leaving later, they are 
migrating later, in the spring, they are migrating earlier in 
the spring, they are migrating later in the fall, so their 
basic pattern is changing because of their response to weather, 
we believe. Then the habitat availability for her is shrinking. 
What the climate assessment tells us is that wet areas will get 
wetter and dry areas will get drier.
    So as wildlife managers, we are now looking at a more 
complicated picture. How do we put that habitat on the ground 
for that hen mallard? What we have to do is be able to look 
into the future because we are not just responsible for today's 
waterfowl hunters, we are responsible for tomorrow's waterfowl 
hunters. We have to be able to think about habitat 10 and 20 
and 30 years from now. We need to recognize that the climate is 
changing, that the habitat needs of waterfowl are going to 
change, their migratory patterns are going to change. We need 
to understand that better so that we can provide the 
opportunity for hunters in the future.
    Senator Merkley. Thank you very much for your testimony, I 
appreciate it.
    Senator Wicker. Thank you, Mr. Chairman. In absentia, thank 
you to Senator Tester for coming. We do appear occasionally on 
Crossfire and enjoy trying to match wits.
    I am sorry Senator Tester is experiencing hailstorms, 
increased hailstorms. I think he made a very telling statement, 
though, when he said, I don't know what is going on. I am not 
sure what is going on. But I know that scientists of good will 
disagree about what is going on. I would say to you, Dr. Ashe, 
and Mr. Chairman, Gail and I have lived on 521 Magnolia Drive, 
Tupelo, Mississippi, for over 32 years. The lady that built the 
house before us planted Saint Augustine grass over 50 years 
ago, and for the first time this winter, I experienced winter 
kill of my Saint Augustine grass.
    Now, I don't know what is going on. But the fact of the 
matter is, that I can play anecdotes all day, I will just say 
that it was somehow the cold and the ice and winter got to my 
Saint Augustine grass that hadn't happened in 50 years on 
Magnolia Drive. I don't know what that proves except that we 
can give anecdotes that don't really have much anything to do 
with science.
    Let's talk about the migration of the ducks. Mr. Ashe, it 
is my understanding that because of the increased demand for 
corn used in ethanol production, we are seeing reduction of 
available breeding grounds in Midwest wetlands and grassland 
for ducks in Mississippi and Louisiana flyways. Don't you think 
that there is an impact caused by the fuel standards on hunting 
species, and don't you think this is an unforeseen consequence 
of Congress interjecting itself into the markets?
    Mr. Ashe. Senator, thank you. I would say we are seeing 
what Ducks Unlimited and others are calling a crisis in the 
prairies. If you think about the States of North Dakota and 
South Dakota, which are really the heart of waterfowl 
production for the United States of America. We have energy 
development, Bakken Oil Fields, squeezing from the west and we 
have agriculture development squeezing from the east. So there 
is no doubt that we are seeing widespread and unprecedented 
conversion of habitat.
    Senator Wicker. If I can interject, because that clock is 
ticking, part of that reduction in habitat is putting more of 
the land into corn to respond to this public policy decision 
that the Federal Government has made. That is a fact, is it 
not?
    Mr. Ashe. Certainly a part of the demand is related to use 
for ethanol, but the market is a global market for corn and 
soybean. The global market is what is driving the demand for 
that commodity.
    What is important for us to realize is that climate change 
lies over that, so as we are trying to maintain and now restore 
and protect habitat for migrating waterfowl, we have the 
increasing complexity associated with changing climate and the 
disruption of their migratory behavior. If you think again 
about that hen mallard as she is migrating, if the temperatures 
are warmer, think about you or me. If we were making a journey 
of some 2,000 miles and the temperature is now a degree and a 
half warmer than she was evolved to tolerate. The prospect now 
is for temperatures to rise throughout the end of the century.
    So she, from a thermodynamic standpoint, she not only has 
to make that trip with less habitat, she going to have to make 
that trip in a hotter world. It is a strenuous endeavor. 
Migration is a strenuous and risky endeavor for any species, 
and now we are increasing the stress on that animal to make 
that trip. She has to make it every year, she has a tight time 
schedule, she has demanding food and energy requirements, and 
we are making that journey harder for her.
    Senator Wicker. I realize, Mr. Director, this is not a 
climate issue, but I am merely trying to point out that you are 
concerned about the migration of ducks, as am I, as are our 
people in Mississippi, particularly along the river counties 
and the delta counties. I would just submit to you that there 
is a lot more to it than increasing of temperatures by one 
degree or one and a half degrees.
    I am going to want to take a second round with this 
witness, Mr. Chairman, so I will yield back to you for 
questions if you would like, but I would like to take a second 
round.
    Senator Merkley. Thank you. Are you going to be able to 
stay with us through the second panel as well?
    Mr. Ashe. Yes.
    Senator Merkley. OK, terrific. Why don't you go ahead and 
take your second 5 minutes?
    Senator Wicker. OK, well, let me ask you this, Mr. 
Director. Do you just dismiss altogether the scientific 
evidence that Senator Sessions mentioned this morning that 
global temperatures have flat-lined for the last 15 years, do 
you dismiss that as being inaccurate?
    Mr. Ashe. I do, sir.
    Senator Wicker. So you have a disagreement with the 
scientists who have demonstrated that we basically have flat-
lined.
    Mr. Ashe. There is no scientific disagreement. If what 
people are doing is taking 1998, which was a high year for 
temperature, and then they are either looking from 1998 to 2013 
and they are saying there is no rise in temperature. You can't 
look at a temperature record that does go up and down and so 
you will have warm years, relatively warmer and relatively cool 
years. You can't pick 1 year out of a 150-year data base and 
say, well, if I use 1995 which was a particularly warm year, 
and I compare all the succeeding years to that, there has been 
no increase in temperature.
    If you look at the complete temperature record, there is no 
doubt that temperatures are rising and the temperatures have 
risen during the course of the last decade. The last decade is 
the warmest decade on record. When you look objectively and 
completely at the scientific record, there is no disagreement. 
The National Climate Assessment reflects that science, that 
large consensus body of science.
    Senator Wicker. Do you acknowledge that the Earth's climate 
has been changing up and down for tens of thousands of years?
    Mr. Ashe. Millions of years.
    Senator Wicker. Millions of years, OK. And that has been 
irrespective of carbon dioxide content on the atmosphere, is 
that correct?
    Mr. Ashe. Carbon dioxide content of the atmosphere has 
changed over time, and has been correlated with by looking at 
the carbon dating record, has been correlated with increasing 
and decreasing temperatures. But what we are seeing now and 
which again science clearly points to, is that human-based 
emissions of greenhouse gases are driving concentrations in the 
atmosphere that have not been seen for hundreds of thousands of 
years.
    Senator Wicker. Are you suggesting that every time over the 
last million years that temperatures have gone up, it is been 
due to carbon dioxide?
    Mr. Ashe. I am not testifying, I can't say every time, but 
what scientists have confirmed looking back into the 
paleontological record is that ice age, warm periods and cold 
periods have been associated with elevated and decreased levels 
of carbon dioxide in the atmosphere.
    Senator Wicker. Let me ask you about forest management. You 
won't be here during panel two. Dr. David South, in his 
prepared testimony says policymakers who halt active forest 
management and kill green harvesting jobs in favor of a hands-
off approach contribute to the buildup of fuels in the forest, 
and this eventually increases the risk of catastrophic 
wildfires. Also, James Walls on panel two will say because of 
past management of fire suppression, the worst neighbor a 
timberland owner can have is a national forest.
    How would you respond to that, and basically in a nutshell 
the argument is by refusing to allow the underbrush there is 
this buildup of fuels and this intensifies forest fires, how do 
you respond to that? They have a point.
    Mr. Ashe. I would not say that U.S. Forest Service is a 
poor neighbor. I don't think they have a point about that. I 
would say that the build up of fuels in our Nation's forests, 
public and private, has been a challenge for us. So whether it 
is a national forest, Bureau of Land Management lands, a 
national wildlife refuge, a national park, a State park, or 
State wildlife management area, fire management is a challenge 
for any land manager.
    I would say the greatest need in that regard is funding for 
preventative management. In this year's budget, the President 
has proposed a so-called fire fix that allows us to begin to 
treat fires like other natural disasters and gives us more 
flexibility to do what you are calling for Senator, which is to 
do prescriptive management of our Nation's forests.
    Senator Wicker. Part of that would be removing the fallen 
trees and the underbrush that amounts to fuel for forest fires?
    Mr. Ashe. In some cases. As a wildlife manager, sometimes 
deadfall and understory is a good thing for wildlife 
management. But in some cases, managing forests, as Senator 
Merkley knows, in the Pacific Northwest, we are working 
together with our State and Federal colleagues on ecological 
forestry, which involves many of the principles that you are 
speaking of, which is getting, do thinning, do understory 
management. I think good, improved forest management is an 
important aspect of our adaptation to changing climate. It is 
an important aspect of wildlife management in providing the 
habitat that our game species are going to need in the future.
    So I agree with you that that is an important adaptation 
for us to take. We need better capacity to do that and knowing 
what we now know about climate change and what the future is 
going to look like.
    Senator Wicker. The Chairs agree to indulge me on one other 
question.
    There's a strategic plan for responding to climate change 
that includes increased data collection initiatives to increase 
awareness and habitat conservation programs. How much money and 
how many employees is this going to take, and will this 
negatively impact other fish and wildlife service programs?
    Mr. Ashe. I am not sure what strategy you are talking 
about.
    Senator Wicker. OK. Well, let me ask you: does Fish and 
Wildlife Service have a strategic plan for responding to 
climate change?
    Mr. Ashe. We do have a climate change strategic plan, and 
as I mentioned before, one of the outgrowths of that plan is 
the National Fish Wildlife and Plants Adaptation Strategy and 
it identifies a number of common sense steps that we can take.
    Senator Wicker. My question is about the cost of this and 
whether employees will be taken away from other programs and 
placed into this initiative.
    Mr. Ashe. No, because they are basically synonymous with 
good management, as you have identified with forest management. 
What we need to do is we need to provide our managers, our 
Federal and State and tribal managers with the tools they need 
to do better forest management better range management with the 
scientific information that they need. It will cost, it will 
take additional capacity to do this, but it needs to be done.
    Senator Wicker. Where is that additional capacity going to 
come from?
    Mr. Ashe. I think as the President has provided in the 
specific context of fire management, as I said, the President 
has provided in this year's budget that 30 percent of the funds 
for suppression should come from the disaster funding ceiling. 
That will free up dollars for us to do more preventative 
management for fire. I think we know we have common sense 
approaches to find and build the capacity that you are talking 
about, and I think the President has proposed one such step in 
his 2015 budget.
    Senator Merkley. Thank you, I will take my 5-minute turn 
then.
    I would like to say that that Forest Service plan makes a 
lot of sense, because what we have had with the large fires has 
been complete depletion of the Forest Service and then trying 
to restore the funds for every other function they have other 
than fighting fires. And that is not treating emergencies as 
emergencies, and just a huge disruptive factor in the ordinary 
work of the Forest Service. That is a terrific proposal. I 
commend the Forest Service for it.
    You mentioned in your testimony that some of the migrations 
that are occurring and specifically you mentioned the Pacific 
brant, and that it has migrated, its range has changed 
dramatically. Can you just explain what is going on there?
    Mr. Ashe. Sure. Pacific brant is a small goose, and Pacific 
brant have range that are breeding grounds in the Arctic. And 
they range, they migrate historically, down to Mexico; winter 
in Mexico or summer in Mexico. And what we are seeing 
increasingly is brant are staying in Alaska throughout the 
breeding season.
    So what that creates is a potential that we will have a 
disruption, that we will have a severe weather event and the 
birds will not have migrated and will take a big population 
reduction. So these changes in migratory patterns put more 
uncertainty into the game for the wildlife managers. If we are 
facing more uncertainty, the way we typically deal with that is 
that we reduce opportunity. I think that is the restriction 
that we are looking at.
    Senator Merkley. My impressions were, seeing this in 
studies of lots of species some of my colleagues have talked 
about the migrating lobsters, so on and so forth, so this is 
not just one particular, lots of ocean species are things that 
are changing.
    Mr. Ashe. Across the board, we are seeing changes in the 
blooming of flowers, the green-up in Alaska tundra in the 
springtime. We are seeing changes in migratory patterns as we 
have talked about. We are seeing changes in habitat 
availability for cold water fish. While one study in 2012 of 
cold water fishes estimates that by 2100, we can see a 
reduction of 50 percent in habitat availability for cold water 
fishes, trout, salmon, a loss of as much as six and a half 
million angler days, and as much as $6.5 billion in economic 
activities. These changes are not inconsequential for sportsmen 
and women.
    Senator Merkley. Thank you. I want you to take a look at a 
chart on the surface temperature issue that was raised. This 
chart shows change in surface temperature from 1970 through 
2013. It basically shows that there is about a .6 degree 
Celsius change in just that 44-year period. One can draw 
impressions about this. I have another chart here that has a 
line that simply represents kind of the rising direction of 
temperature. But I wanted to specifically emphasize the second 
chart, which shows the rising temperatures in a series of 
steps, and because a number of folks have commented and said, 
well look, this last bar is flat, and it is flat over a period 
of approximately 10 to 12 years, and therefore nothing to worry 
about.
    But when you see this chart, going backward, we see a 
series of periods where the average temperature keeps 
increasing by steps, if you will. Is there any reason to think 
that if we are looking at this chart 10 years from now, that we 
will see a new step that is lower than the step we are at now, 
is there any reason to think, no issue here, that this trend is 
not going to continue?
    Mr. Ashe. I am not aware of any scientific study that 
predicts a decline in temperature from this point forward. Your 
observation, as I was saying in response to Senator Wicker's 
statement, is you look at the long term temperature record, it 
is unequivocal that temperatures are rising and that 
predictions are for the temperatures to rise and the rate of 
temperature increase to rise in the future.
    Senator Merkley. Thank you very much for your testimony. I 
appreciate it very much, and your bringing the expertise of 
your agency to bear on these broad trends that we are 
experiencing.
    Senator Wicker. Mr. Chairman, I wonder if there is any 
reason to believe that if we raise electricity rates on 
American farmers and ranchers by double digits that that line 
is going to change one way or the other?
    Senator Merkley. Is that something you want to speculate 
on?
    Senator Wicker. I have already speculated.
    Senator Merkley. I will note that I have entered into the 
record an analysis looking at future power costs. It actually 
anticipates a reduction, but that is maybe for another hearing, 
or another debate and discussion.
    [The referenced material was not received at time of 
print.]
    Senator Merkley. Let's turn to our second panel, if they 
could come forward.
    Welcome. It is great to have you all, I am happy to 
introduce our second panel of witnesses. We have a very diverse 
group that includes three individuals who will talk about how 
climate change is impacting their area of expertise. We also 
have two minority witnesses who will present their perceptions 
as climate change skeptics. I will go ahead and introduce 
everyone now, and then we will proceed with the testimony.
    Our first witness is Jim Walls, who I am particularly 
delighted to have here, from Oregon. Jim serves as the 
Executive Director of Lake County Resources Initiative, an 
organization dedicated to improving forest management on 
national forests and expanding the use of renewable energy in 
rural communities. He has been a leader in forestry and clean 
energy in Oregon, working to foster more collaborative 
approaches to forest management, as well as working to make and 
attract more biomass, geothermal, hydro, solar and wind energy 
projects to Lake County.
    Our second witness is Clay Pope; he is a fourth generation 
wheat farmer and cattle rancher in northwest Oklahoma and also 
serves as the State Association Executive Director of the 
Oklahoma Association of Conservation Districts. Clay served in 
the Oklahoma House of Representatives from 1994 through 2004. 
Welcome.
    Our third witness is Daniel Cohen. Daniel is a commercial 
fisherman and owner of Atlantic Capes Fisheries, a scallop 
harvesting and marketing company based out of New Jersey, but 
it does business on both coasts.
    David South is a retired professor of Forestry at Auburn 
University, where he also earned his Ph.D. in forestry. Mr. 
South also served as Director for the Southern Forest Nursery 
Management Cooperative.
    David Legates, our final witness, is a joint associate 
professor of Geography at the University of Delaware. He is 
also the former director of the Center for Climatic Research at 
the University of Delaware.
    Welcome everyone, and Mr. Walls, if you could kick off the 
testimony, the show is yours.

   STATEMENT OF JAMES WALLS, EXECUTIVE DIRECTOR, LAKE COUNTY 
                      RESOURCES INITIATIVE

    Mr. Walls. Thank you, Mr. Chairman, and fellow members, it 
is a privilege to be here and an honor.
    As said my name is Jim Walls. I run a small non-profit in 
Lake County, Oregon, concentrating on Federal forest lands and 
renewable energies. We are 78 percent government land-owned in 
our county, and that is over 8,500 square miles, so it is big, 
it is bigger than some eastern States.
    Within that, like many communities with forests over the 
past three decades, we have suffered high unemployment, poverty 
rates and stuff due to policies on our national forest. We look 
at renewable energy as a way to change that economy and bring 
new green jobs to the forefront.
    When discussing climate change on forests, I can't separate 
the actions of past forest management and the impacts of 
climate change. They are both in the same treatments, will have 
the same effects, and that is we under-thin, take the 
understory and remove it, and remove that amount so there is a 
more back to a natural area, a natural stand condition that was 
pre-European. That is also the strategy we need to use for 
climate change. So they are intertwined.
    In our case, I would like to point out that over the past 
decade, what has that meant in our forests. In 10 years, the 
first fire was the Winter Rim Toolbox fire, we lost 100,000 
acres. Then we had a beetle kill of over 350,000 acres. Then in 
2012, we had the Barry Point fire, 93,000 acres. In less than a 
decade, we have now lost 24 percent of the Fremont, part of the 
Fremont-Winema National Forest. If we keep this rate up, 
because fires are getting more intense, insects are getting 
more intense, because of the warmer climate change. If we keep 
this up, we will lose, in three decades, our whole forest, and 
I think that is a real and severe threat to us.
    It is not only a threat to our industry in timber. It is a 
threat to our agricultural industry, too. We average 10 to 20 
percent moisture during the winter; our summers are hot and 
dry, normally. Without that snowpack, we don't have 
agriculture. We don't have irrigational water. All you have to 
do is look to our neighbors in the Klamath Basin this year and 
what is going to happen there. And even in Lake County, we are 
seeing reduced irrigation rates because of the drought, 
droughts that we have never seen this severe before.
    I think we can debate the climate change, long term, short 
term, all that. I personally say, it is here, and the risk is 
way too high just to ignore those few, that you might be right 
that it is not happening. And I hope we don't go there. By 
using renewable energy I feel that we can offset that. We have 
developed a plan in Lake County by all the ones that we have 
done an economic analysis and feasibility study on. We will 
offset 93 percent of the fossil fuel emissions in a decade in 
Lake County. And we will do it economically.
    So as we go forward with this debate, I would hope that we 
look at the things like that that make economic sense. Now, can 
renewables compete with hydro? No. Could it compete with other 
forms of coal and industry? Solar, the cost of a panel now is 
very cheap. It is reducing all the time. Wind is there. And as 
we invest in these, more and more of them will become 
competitive at other rates throughout the country. And it is a 
way to turn our jobs around.
    I ask you one thing, is to change the definition, which 
Senator Merkley will co-sponsor with Senator Wyden on, on the 
renewable energy. Biomass off Federal lands is not considered a 
renewable energy source. That reduces our investment. We have 
two companies looking at locating in Lake County. We only have 
supply for one, so hopefully one of those will make it, and 
that is a cellulosic jet-fuel company, and then a biomass 
energy production company. With that definition, they do not 
want to invest, because it is not considered renewable. So 
please do change that, Senate Bill 536, and get that passed so 
we change that definition. It does not make sense to me.
    The other thing I would like to say is that we need to 
increase the scale of getting treatments. I mentioned, and 
Senator Wicker, you said my full testimony about the worst 
neighbors, the Forest Service. It is not because we don't know 
what to do, it is the length of time and the amount we are 
getting done. And we need to increase, rather than treating 
3,000 to 4,000 acres of land that is overstocked, that we would 
be treating 20,000 acres a year. And that we get to 100,000 
acres in NEPA, and not just doing small acres projects at a 
time.
    So we don't want to skip any environmental rules or do 
anything like that. We want to do it ecologically sound and 
economically as well. As we move on, I hope you also look at 
the fire spending that was mentioned. We cannot get ahead of 
this or achieve our goals of those acres if we don't deal with 
fire borrowing that occurs every year. And as these fires get 
more intense and hotter, we need to look at that. And Senate 
Bill 1875, I hope you endorse that bill and get that through. 
Because it is far cheaper to treat the forest land than it is 
to suppress fire. And they are increasing.
    The other thing that climate change has done in the thicker 
forest is that it keeps the snow from hitting the ground. We 
get large amounts of evaporation rate in those thicker forests, 
so our snowpack is reduced. That is the other fact.
    So I do see by implementing and by doing common sense 
things today such as renewable energy, we can make some great 
impacts and then what is after that; let's make the more 
challenging stuff.
    Thank you.
    [The prepared statement of Mr. Walls follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Merkley. Thank you very much, Mr. Walls.
    Mr. Pope.

 STATEMENT OF CLAY POPE, STATE ASSOCIATION EXECUTIVE DIRECTOR, 
         OKLAHOMA ASSOCIATION OF CONSERVATION DISTRICTS

    Mr. Pope. Chairman Merkley, Ranking Member Wicker, and 
members of the committee, thank you very much for allowing me 
the chance to come before you today and speak about climate 
change and the challenges facing agriculture on the Southern 
Plains.
    First, let me say we have always had wild weather on the 
Southern Plains. I think Oklahoma Native Will Rogers put it 
best when he said ``If you don't like the weather in Oklahoma, 
wait a minute; it will change.'' What is different, though, is 
the frequency and strength of the weather events that we are 
now seeing. Basically, our crazy weather has been put on 
steroids. The drought we have been suffering through for the 
last 5 years is a perfect example of this, and it is had a 
drastic impact on agriculture. In Oklahoma alone, we have seen 
a reduction in the cattle herd over 10 percent. By the first of 
this year, the cattle inventory in the United States had shrunk 
to its lowest level since 1951. And over 80 percent of these 
reductions happen in two States: Oklahoma and Texas.
    But the effects of the drought aren't just limited to 
livestock. In Oklahoma, we may be looking at the fourth year in 
a row where at least 50 percent of the State's cotton acres 
will be abandoned, and as bad as the cotton situation is, 
however, the real story is wheat. This year's wheat harvest is 
expected to be the lowest since 1957. It is estimated that the 
amount of wheat harvested in 2014 will be 40 percent of what 
was cut in 2013, and that crop was 30 percent below what was 
cut in 2012.
    Now, this drop in production isn't just due to the drought. 
A late season freeze also took its toll on Oklahoma's wheat 
crop. Now, late season freezes aren't anything new, but what is 
new, though, is the frequency. This is the third time in 5 
years that a late freeze has impacted Oklahoma's wheat crop. 
Clearly, we have a problem. The question is what do we do about 
it?
    Well, the secret, Senators, in my opinion, is in the soil. 
Improving the health of our soil is a key to helping 
agriculture both mitigate and adapt to climate change. Our farm 
ground has lost between 60 to 80 percent of the organic matter 
that was present in the soil at initial plow-up. This is 
important because it is organic matter that feeds the microbial 
community of bugs, bacteria and fungus under the soil; 
therefore, my first and best line of defense against climate 
change. Every 1 percent increase in organic matter in the soil 
can triple that soil's water holding capacity. That equals on 
average to an additional 25,000 gallons of water available per 
acre for growing crops.
    By converting then to cropping systems that also 
incorporates cover crops, we can greatly increase the 
infiltration rate of watering our farm ground while at the same 
time, reducing the amount of moisture lost to evaporation when 
that land is tilled, exposed to the sun. This helps our farms 
better weather the droughts that are being exacerbated by 
climate change while providing more moisture for growing crops. 
This increase in soil moisture also helps restore balance to 
the overall water cycle, which in turn increases stream flow, 
making more water available for humans and wildlife. By using 
no-till we can also greatly reduce soil erosion while at the 
same time reducing runoff from agricultural land. This not only 
protects the soil, it also reduces non-point source pollution 
in our streams and rivers.
    In addition, that same 1 percent increase in organic matter 
can, on average, make available up to $700 worth of additional 
nutrients per acre for growing crops. By improving the health 
of our soil, we can help plants more effectively absorb the 
nutrients available in the ground, helping us increase yields, 
and feed an ever growing planet. And as we do all this; we are 
also lowering carbon dioxide levels in the atmosphere. No-till 
can sequester on average roughly half a metric ton of carbon 
per acre per year.
    Now, we all know plants breathe in carbon dioxide and 
breathe out oxygen. That carbon dioxide is then stored in the 
soil in the form of organic matter. When you restore soil 
health, you help agriculture adapt to climate change while you 
improve water quality, while you improve wildlife habitat, 
while you increase yields, and at the same time, sequester 
carbon dioxide in the soil. This is something we need to do. 
And through the Farm Bill Conservation Program, USDA and RCS 
have the ability to help producers do it.
    Unfortunately, as budgets tighten, financial assistance 
through these programs and the funding for technical assistance 
continue to shrink. During the Dust Bowl it was determined that 
it was in the public's interest to keep the farm ground in the 
Southern Plains in production. Through the partnership of the 
Federal and State governments and local conservation districts, 
the tide of dust was turned back. This partnership has the 
ability to address climate change in the same manner that they 
addressed the Dust Bowl, if they have the necessary resources.
    Even with these tools, though, researchers need to 
determine what kinds of technologies are best suited to help 
agriculture adapt to climate change. The USDA started this 
process by the formation of the regional climate hubs. They 
hold great promise that will go unrealized if that they aren't 
provided with the resources necessary to do their job.
    As we focus on the droughts though, we can't lose sight of 
the fact that floods will come again. In fact, droughts and 
floods have a tendency to come together in Oklahoma. Take the 
Hammond Flood in 1934. Happened in the middle of the Dust Bowl 
and it spurred the Federal Government to build small watershed 
dams through USDA, something Senator Inhofe alluded to earlier. 
Oklahoma alone has over 2,100 of these structures, most of 
which are in need of rehabilitation. When this work takes 
place, many of these could be made into reservoirs for nearby 
communities to help with water shortages and the flash floods 
made worse by climate change. With the passage of the Farm 
Bill, funding was authorized to do this work. Unfortunately, 
NRCS rules State can only be used to repair existing structures 
to their current size. This doesn't have to be the case. A 
change in the rules would allow Federal funds to be made 
available to help several of our communities with new water 
sources.
    In addition, when you look at the opportunities outlined in 
the original Flood Control Act, purposes like water quality and 
quantity, flood mitigation and wildlife enhancement, you see 
this program as another tool the USDA already has that can help 
our country better adapt to climate change.
    In closing, I would reiterate: Southern Plains agriculture 
is facing some serious challenges from climate change. The good 
news is, though, is that the USDA has some tools to cope with 
this challenge, and there is a path forward. The question is, 
will we take it?
    Thank you for allowing me to speak today, I will be happy 
to answer any questions.
    [The prepared statement of Mr. Pope follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    Senator Merkley. Thank you, very much, Mr. Pope.
    Mr. Cohen.

   STATEMENT OF DANIEL COHEN, OWNER, ATLANTIC CAPES FISHERIES

    Mr. Cohen. Thank you very much for the opportunity to 
address the committee as we evaluate the impact of climate 
change on our environment and livelihoods and for the next 
generations.
    The fishing and agriculture industry of the United States 
is, especially the shellfish industry, is extremely susceptible 
to increases in ocean temperature and ocean acidification. Like 
canaries in the coal mine our shellfish agriculture industry 
has already been significantly impacted and is the harbinger of 
the consequences of human use of fossil fuels and 
CO<INF>2</INF> increases in our atmosphere.
    I am Daniel Cohen, president of Atlantic Capes Fisheries, a 
second generation fishing industry. Today, we operate vessels 
on the east coast and the west coast with facilities in New 
Jersey, Maryland, Rhode Island, Massachusetts, and the Pacific 
Northwest. We are focused on scallops, crabs, clams, and squid. 
And I have spent a considerable amount of time in fisheries 
research in the academia and the National Marine Fisheries 
Service raising over a million dollars per year with the Mid-
Atlantic Fisheries Management Council in primary science in 
conjunction with Rutgers University, Virginia Institute of 
Marine Sciences, National Marine Fisheries Service and Cornell 
University.
    About 15 years ago, recognizing that the wild harvests of 
our commercial fishermen sells would be capped to make certain 
that we had sustainable harvests for the future, and with these 
sustainable capped harvests, there would not be enough fish 
protein for a growing world population that then was 6 billion, 
now 7 billion soon, will be 9 billion, the industry begins 
looking more and more toward aquaculture to meet those rising 
needs. I will use examples today, but not anecdotes, but what 
actually what has happened to industry and then backed up with 
scientific research to bring what is actually happening. And I 
am going to do that with four examples that are really just 
examples, and we can talk more about others. These examples are 
coming from three sources: one, changes slowly over time and 
bottom temperature changes in the ocean; two, rising ocean 
acidity from carbon dioxide in the atmosphere going into the 
oceans as a pCO<INF>2</INF> sink, raising levels of ocean 
acidification; and three, changes in ocean currents, which the 
scientists have ascribed to changes in bottom temperature.
    I have four examples: surf claim fisheries on the east 
coast, oyster hatcheries and farming in Oregon and Washington, 
and the food fishery in North Carolina to Rhode Island, and the 
scallop farming in British Columbia. The surf of clam fishery 
was historically centered off the coast of Virginia up through 
New Jersey. The robust New Jersey fishery in New Jersey landed 
over 50 percent of the surf clams for the entire country and 
surf clams are the No. 1 ingredient in, obviously, clam 
chowder, which was and I think still is the No. 1 soup served 
in restaurants in the country and are also enjoyed as fried and 
buttered clam strips.
    As outlined in the written evidence I have given in 
addition, bottom temperature rise was first identified after a 
National Marine Fisheries Service survey determined a large die 
off of surf clams off of Virginia, Rutgers and VIMS, scientists 
have determined it was due to bottom temperature changes. 
Cooler waters in New England saw greater spawning off New 
England. Clam plants have shut in Virginia and Maryland and New 
Jersey and new plants opened in Massachusetts and Rhode Island, 
showing a shift in the population of the clams due to bottom 
temperature rise documented by Rutgers, and therefore change in 
jobs.
    In the Pacific Northwest, we have seen large ocean 
acidification. In our written testimony is that of George 
Waldbusser from Oregon State University documenting over $110 
million worth of losses to the hatchery industry alone where 
now they are having to buffer all their water similar to the 
way you buffer yourself with Tums because of ocean 
acidification. The only way they have been able to have 
successful hatcheries in the last few years because of major 
problem mid-part in 2000 when we discovered the problem coming 
from ocean acidity.
    In 2013 in British Columbia there was a major die-off, 90 
percent of all the scallops being raised offshore. Three year 
classes were killed including my company. I sustained alone a 
$10 million loss. The scientists there, which are continuing to 
research this right now, believe that the ocean is the highest 
level of ocean acidification which were recorded last summer 
weakened the animals to become more susceptible to endemic 
disease.
    In terms of the fluke fishery, you have evidence in my 
written testimony mostly documented by an article that is being 
released today by the Daily Climate that is documenting work by 
National Marine Fisheries Service and NOAA, documenting 
temperature changes in the east coast affecting the migration 
and distribution of the fluke fishery. The fluke fishery in 
completely rebuilt because of good management practices by Mid-
Atlantic Council. But because the distribution of those fluke 
are moving slowly north, the traditional way you traditionally 
fished off of North Carolina are now being fished off of New 
York and further north. Therefore there is a user conflict now 
of State by State allocation of the fluke fishery and 
recreational commercial conflict, all a consequence of change 
in distribution due to documented bottom temperature change.
    I am going to conclude by saying that I believe that it is 
irrefutable that climate change is happening, that leaders of 
the east coast fishing industry along with myself have formed a 
company called Fisherman's Energy specifically to try, similar 
to what was testified here, to try to also adapt. We propose to 
build offshore wind farms and these are just examples that we 
as a society must take to be actually agents of change rather 
than victims of change.
    Thank you, I would be happy to answer questions whenever 
you'd like.
    [The prepared statement of Mr. Cohen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Merkley. Thank you, Mr. Cohen.
    Dr. South.

STATEMENT OF DAVID SOUTH, Ph.D., EMERITUS PROFESSOR, SCHOOL OF 
       FORESTRY AND WILDLIFE SCIENCES, AUBURN UNIVERSITY

    Mr. South. It is a privilege to provide you with my views 
of forest and wildfires. Foresters know that there are many 
examples of how human activity affects both the total number 
and size of wildfires. Policymakers who halt active forest 
management and kill green harvesting jobs really end up 
contributing to the build up of fuels in the forest. This 
eventually increases the risk of catastrophic wildfires.
    To attribute this human caused increase to the fire risk, 
to carbon dioxide emissions is simply unscientific. In today's 
world of climate alarmism, accuracy really doesn't seem to 
matter. I am therefore not surprised to see many journalists 
spreading the idea that carbon emissions cause large wildfires. 
There is a well known point called the serenity prayer and it 
states: God, grant me the serenity to accept the things I 
cannot change, the courage to change the things I can, and the 
wisdom to know the difference. Now that I am 65, I realize that 
I can't change the behavior of the media, and I can't change 
the weather.
    Early in my career, I gave up trying to change the media 
and make them correct their mistakes about forest management. 
Now I just concentrate on my colleagues, trying to get them to 
do a better job of sticking to the facts. I will leave the 
guesses of the future to others. Untrue claims about the 
underlying causes of wildfires can spread like wildfire. The 
false statement that wildfires in 2012 burned a record 9.2 
million acres in the U.S. is cited in numerous articles and is 
found in more than 2,000 Web sites. But you can see by the 
looking at the graph that wildfires in the 1930s burned about 
four times that rate.
    Wildfires in 2012 were certainly an issue of concern, but 
those who push an agenda really need to exaggerate the claims 
in order to fool the public. This graph shows carbon emission 
rising since 1926. If we cherry pick data from 1926 to 1970, we 
get a negative relationship between carbon dioxide and fire 
size. However, if we cherry pick data from 1985 to the current 
year, we get a positive relationship. Neither of these 
relationships proves anything about the effects of carbon 
dioxide on wildfires, since during dry season, human activity 
is the overwhelming factor that determines both the number and 
size of wildfires.
    In the 48 States there have been about 10 extreme mega-
fires. Eight of these fires occurred during cool decades. These 
data suggest that extremely large mega-fires were four times 
more common before 1940, back when carbon dioxide 
concentrations were less than 310 parts per million. It looks 
to me like we cannot reasonably say that man-made global 
warming causes extremely large wildfires.
    Seven years ago, this committee conducted a hearing about 
climate change, and wildfires weren't even mentioned in that 
meeting, but hurricanes, droughts, were mentioned a number of 
times. I am pleased to provide you with my forestry views 
because unlike hurricanes, droughts, and the polar vortex, we 
can actually promote forestry practices that will reduce the 
risk of wildfires. Unfortunately, some of our national forest 
management policies have in my view contributed to increasing 
the risk of wildfires.
    I am certain that attempts to legislate a change in the 
concentration of carbon dioxide in the atmosphere will have no 
effect on reducing the size of wildfires or on the frequency of 
droughts. In contrast, allowing forest management practices to 
create economically lasting forestry jobs in the private sector 
might reduce the fuel loads of dense forests. In years when 
demand or renewable resources are high and increasing the 
number of thinnings and harvesting jobs might actually have a 
real impact on reducing wildfires.
    Thank you for this opportunity to address the subcommittee.
    [The prepared statement of Mr. South follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Merkley. Thank you very much, Dr. South.
    Dr. Legates.

     STATEMENT OF DAVID R. LEGATES, Ph.D., CCM, PROFESSOR, 
        DEPARTMENT OF GEOGRAPHY, UNIVERSITY OF DELAWARE

    Mr. Legates. Thank you, Mr. Chairman, Senators.
    Carbon dioxide is plant food, and more of it can be a 
positive. If global temperatures rise for any reason, the 
length of the growing season will be increased, the amount and 
diversity of crops will be enhanced, and more areas of the 
planet will be farmed. The big problem, however, is a limiting 
factor for agriculture in much of the world, water 
availability. Soil moisture in a normal world depends on a 
complicated interaction of changes in precipitation and 
increases in water demand. Globally, we have seen drought 
frequencies have not changed over the past 60 years.
    The percentage of the United States in moderate or extreme 
drought has not changed in 112 years, a pattern that has been 
noted by the climate change science program and the IPCC. 
Recently, droughts have not become more intense or of longer 
duration. Thus, the historical record does not warrant claiming 
that global warming will negatively impact agriculture.
    Dire forecasts of extreme drought arise, however, from 
climate model simulations which are only as good as their 
ability to simulate precipitation. Most models overestimate the 
frequency of rainfall but underestimate its intensity. Thus, 
while models may appear correct in the aggregate, they don't 
get the process correct. How can models make accurate estimates 
of precipitation changes when they cannot simulate correctly 
the mechanisms that drive precipitation?
    Evaporative demand is driven by air temperature. But models 
have overestimated the air temperature rise since 1979 by 
almost 1 degree Fahrenheit. If precipitation and air 
temperature are not modeled properly, how then can modeled soil 
moisture be relied upon to prepare farmers for an uncertain 
future?
    Climate changes because climate has always changed, and 
droughts have happened in the past and are likely to occur 
again with similar frequencies and intensities. Thus, I believe 
preparation for their return is a better strategy than trying 
in vain to mitigate them through draconian carbon dioxide 
emission control policies, such as those proposed only 
yesterday.
    However, I have become increasingly concerned as to how 
this scientific debate is being corrupted. In my 2003 Senate 
testimony regarding the hockey stick, I lamented that a healthy 
scientific debate was being compromised. An attack had been 
made on the scientific process. Editors at two journals have 
been harassed; one of the journals was threatened with an 
organized boycott by scientists over a paper it had published. 
The senior editor moved to bar two scientists from future 
publication in the journal solely because of their position on 
climate change, without a hearing, and without even accusation 
of fraud or plagiarism.
    I would like to report that things have become better. They 
haven't. In 2009, ClimateGate shed light on how the scientific 
process was being subverted. In my case, I learned I had been 
denied publication of an important paper due to solely a 
conclusion between another scientist and an editor. Over the 
years I have applied for several Federal grants, including NASA 
and U.S. Department of Agriculture, the latter having nothing 
to do with climate change. It is not that I received bad 
reviews; indeed I received no reviews at all. Program officers 
refused to respond by e-mail or telephone. Their behavior 
appears related to an article that appeared in the National 
Academies of Science which is often used as a blacklist to 
target ``researchers unconvinced of anthropogenic global 
warming.''
    Several years ago, I and two colleagues in Delaware 
received FOIAs for material related to climate change. My story 
is documented in my written testimony. The university general 
counsel informed me that he would review my documents 
regardless of how or where they were produced. The other 
faculty members that participated in the IPCC indicated FOIA 
did not apply to them. I was told that although the law may not 
require him to turn over anything; it does not preclude him 
from doing so. In essence, I will be treated differently simply 
because he can treat me that way.
    So I sought legal counsel. The dean informed me I could not 
hire my own lawyer and the college would no longer support me. 
I was removed as the Delaware State climatologist, as co-
director of an environmental network I has spent nearly a 
decade to develop, as faculty advisor to a student group and 
from all departmental responsibilities. Legal counsel finally 
agreed to treat all of us equally. This never occurred. He 
never went through materials for anyone else; I alone was 
targeted, then lied to. Even the faculty union that supported 
Dr. Mann at the University of Virginia told me that FOIA 
matters did not fall within their bailiwick.
    According to the CBO of the University, none of my research 
material or e-mails fall under the FOIA law. The actions of the 
university violate the terms of a Federal arbitration case. 
There is nothing in my records of which I am embarrassed. I 
tell you this story not because I seek sympathy, but because of 
many other cases for which the victims cannot speak out. This 
so-called war on science is nothing but a diversion. The real 
war is being waged within the halls of academia and within our 
Federal granting agencies.
    As with lysenkoism in the Soviet Union, a healthy 
scientific discussion is being subverted for political and 
personal gain. Scientists who deviate from the anthropogenic 
global warming playbook are harassed, have articles, grants, 
and proposals rejected without review, are treated more harshly 
than their peers, and are removed from positions of power and 
influence. Young scientists quickly learn to toe the party line 
or at least remain silent. Thus, they lose their career before 
it begins.
    I leave you with this thought: when scientific views come 
under political attack from within academia, the loser is 
independent thinking and good policymaking because all require 
rational thought to be effective. Thank you.
    [The prepared statement of Mr. Legates follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Merkley. Thank you all very much for your 
testimony, we will now have 5-minute periods. I believe the 
order after I ask my questions, we will go to Senator Sessions 
and then to Senator Vitter. Senator Wicker has said he'll defer 
to his colleagues. And I didn't see you come in, Senator 
Whitehouse. So, let me check on the order. We will go back and 
forth between Ds and Rs. Thank you.
    So, I wanted to start, Mr. Walls, in Lake County, I have 
been very struck when I visit there, it is obviously a rural 
economy, a rural part of the State of Oregon and a lot of 
emphasis on renewable energy, and I believe a stated goal of 
the county is to try to replace virtually all of the fossil 
fuels burned with renewable sources. Is part of the factor 
driving that conversation in Lake County general observations 
by folks about the impact of carbon dioxide on, as you were 
putting it, on the forests?
    Mr. Walls. In the beginning, which would have been about 10 
years ago, when we started working on this, it became clear 
afterwards when we started analyzing and we did a paper on it, 
we could offset 93 percent. My board just approved this past 
week that we will go public with all our findings and try and 
develop a plan to use renewables to offset all carbon 
emissions.
    So we grew into that as we learned more and more of the 
benefits of the economic benefits of renewable energy, how it 
would impact us and we just said, well, what is that going to 
do to climate change? What is that going to do to carbon 
dioxide emissions? And like I said in my testimony, what we 
have on the drawing table today would offset 93 and to get to 
100 is not that difficult from there. We are well on that road. 
I think we can be 100 percent offset within 10 years.
    Senator Merkley. Great. Thank you. I was looking at the 
National Climate Assessment and Summary. It notes that climate 
change is exacerbating major factors that lead to wildfire, 
heat, drought, and dead trees, that it outweighed other factors 
in determining the burned area in the western U.S. from 1916 to 
2003, including the exacerbation of bark beetle outbreaks, 
which normally die in cold weather, more wildfires, as change 
continues. Then I saw that there is a 2011 report that 
estimates that if you increase the temperature 1.8 degrees 
Fahrenheit, which is approximately 1 degree Celsius, that you 
would quadruple the amount of acreage burned. But as you look 
at the forest issues, if I understand your testimony correctly, 
you are seeing both the impacts of human management of the 
forest as a factor, but also the overlay of these climate 
factors.
    Mr. Walls. Exactly, and as I mentioned it has impacted our 
snowpack dramatically. If you look in the Klamath Forest just 
to the south of us, this year they had six snow cell sites that 
were zero percent snowpack.
    Senator Merkley. And with that, drier conditions.
    Mr. Walls. Yes, and then the beetle kill. We have never 
seen, well, beetle kill gets into lodgepole pine naturally. But 
it has never been the size that it is today. And that is 
because we don't have the cold temperatures and they get to 
live year after year because of the warmer temperatures and 
they are not being killed. And 350,000 acres is abnormal, 
nobody has ever seen that. And then I think throughout the 
whole west, into Canada was over 4 million acres of beetle 
kill, somewhere in that neighborhood.
    Senator Merkley. Thank you very much.
    Mr. Pope, turning to the farming side, one of the things 
you mentioned were changes in the wheat farming, and are you 
arguing that the changes in wheat are being impacted by 
changing temperatures?
    Mr. Pope. Yes, and when you look at the situation in the 
southern plains right now, clearly the drought over the last 
few years has had a huge impact. I think too, that when you 
look at the situation as far as precipitation, and clearly, 
with wheat, wheat's a really resilient crop, it depends on when 
you get the rain and what time the rains come. The challenge is 
the rain patterns that we have been seeing, the way that things 
are changing, you put into that the effects, late season 
freezes, the droughts; clearly, we are seeing an impact on the 
wheat crops from the changes in the climate that we are 
experiencing right now.
    I think there are some things that we can do to help adapt 
to that situation, I hope we can do some things to move forward 
a little bit as are as improving the soil health, try to do 
things to help make our farms more resilient to droughts, to 
freezes, to sudden flooding event, heavy rain events. I think 
that is a challenge we have got far in front of us is to try to 
make sure that we got those tools to do that job.
    Senator Merkley. Thank you, and in the 45 seconds I have 
left, I read a recent report about oysters in the Chesapeake 
declining in part because of acidity, but that also has a 
secondary impact because oysters filter the water in the 
Chesapeake, possibly offsetting many of the efforts to clean up 
the Chesapeake Bay. Is that consistent with what you are 
seeing?
    Mr. Cohen. So first, oysters are specifically a great 
benefit for the environment because they are filter feeders, 
and they do clean. One of the things why in the Chesapeake Bay 
they are trying to bring them back Is because they need to 
clean the Bay up. But in the Chesapeake, very similar to what 
is happening in the Pacific Northwest, is that we have rising 
levels of pCO<INF>2</INF> the partial pressure of 
CO<INF>2</INF> in the ocean, and therefore, rising acidity. In 
the Pacific Northwest, we have been able to document it because 
it is mostly hatchery based. And there as hatchery based, you 
can control what is happening and identify.
    It is a little harder in the wild environment to determine 
what is happening to see really whether or not this spawning 
that has taken place, again with the it is not really spawning; 
it is a little baby larvae have a hard time setting up their 
shell. They can't accept the calcium into their shell because 
of the acidity. If you use Tums, in your stomach, it is really 
calcium, you are buffering. Does that answer your question?
    Senator Merkley. Thank you, and I would ask a lot more, but 
my time is expired. I will ask everyone to keep their question 
within the 5 minutes. Maybe an answer we will go over, since we 
have a number of folks who certainly want to jump into this, 
and I believe, Senator Sessions, you are next.
    Senator Sessions. Thank you, Mr. Chairman.
    Dr. Legates, the time that we can intimidate people who 
present scientific papers that disagree with the current idea 
that is in fashion needs to be over. And we need to challenge 
that. I am not going to rest easy about it myself. I know the 
President, and I have challenged this twice, he said the 
temperature around the globe is increasing faster than was 
predicted even 10 years ago. He said that twice. Do any of you 
gentlemen support that statement? Have any science that would 
back that up?
    Well, Mr. Ashe doesn't because I have asked him about it. 
So we do not need to tolerate the President of the United 
States falsely asserting the status of climate in America. We 
need to be able to allow scientists to present contrary views 
without being intimidated by the politically correct crowd. I 
feel strongly about it, and we are going to keep working on 
that. The U.S. Climate Change science program said ``In May 
2008 a tendency toward a decrease in severity and duration of 
drought over the latter half of the 20th century, a decline. 
And a decrease in the severity and duration of drought.''
    So I think about that Kingston trio song, Mr. Pope, Texas 
you could substitute Oklahoma for Texas, they are riding in 
Africa, they are starving in Spain, the whole world is full of 
strife, and Texas needs rain. So we got a lot of drought in the 
1930s, did we not in Oklahoma? More than you have today? In the 
Dust Bowl times?
    Mr. Pope. Actually, if I could answer, it is actually drier 
now that it was in the 1930s, and actually the drought in the 
1950s is the drought of record in Oklahoma. The drought of the 
1930s is actually the third worst, the one that we are in right 
now is actually worse than the one we had in the 1950s and the 
one we had in the 1930s.
    Senator Sessions. So you think it is more severe than the 
1930s?
    Mr. Pope. Yes, it is. If it hadn't been for the 
conservation practices on the land right now, I feel very 
confident in telling you we would be experiencing the 
challenges that we say in the 1930s as far as wind erosion.
    Senator Sessions. That is not the trend across the country, 
apparently. Dr. South, thank you for your statement and the 
data you submitted with it. You have a chart here that 
indicates that rainfall in forest lands in different regions of 
the country have increased over 100 years ago. Is that the way 
I read that?
    Mr. South. In the northeast.
    Senator Sessions. It indicates that others areas have 
increases also?
    Mr. South. Yes.
    Senator Sessions. Matter of fact, every one of the regions 
seem to show, you indicate other regions have had reductions.
    Mr. South. There's no change in the west, there is a slight 
decrease in the southwest.
    Senator Sessions. Where the droughts are severe now. But 
you have a 4 percent increase in the northeast?
    Mr. South. Minus two-tenths of an inch in 100 years.
    Senator Sessions. OK, in the southwest?
    Mr. South. In the southwest.
    Senator Sessions. Overall, we are not seeing a decline in 
rainfall that appears to me, throughout the country as a whole. 
Dr. South, isn't it true that we have had a resurgence of game 
in Alabama?
    Mr. South. Certain species, that is correct.
    Senator Sessions. Isn't it true that many forests are being 
managed far better than in the past?
    Mr. South. Better is a value term, but from a forestry 
perspective, I would say yes.
    Senator Sessions. Land that were once row cropped and 
broken up every year, marginal lands, highly erodible lands, 
are now in timber, are they not?
    Mr. South. Yes.
    Senator Sessions. And from an environmental and 
CO<INF>2</INF> point of view, is that increase in timberlands 
in the southeast, that I know about, that is positive, would 
you not say for CO<INF>2</INF> and the environment?
    Mr. South. From a mathematics perspective, yes.
    Senator Sessions. So the way we manage timber would be you 
would plant an open field that is being harvested every year, 
trees grow for 15 years, they are thinned, the trees then grow 
faster because there's a thinning, and then they are harvested 
15 years 30 years 50 years, and replanted. I would say that is 
a renewable resource, would you not?
    Mr. South. Definitely.
    Senator Sessions. Would you oppose the idea that we 
shouldn't treat wood as a renewable resource like we do corn? 
Would you oppose the idea that some are raising that we 
shouldn't use wood for renewable energy or other resources like 
pellets?
    Mr. South. Yes.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Merkley. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. I appreciate that planting trees helps 
reduce carbon, but it hardly offsets the coal plant next door 
that is putting out tens of thousands of tons of carbon 
dioxide. The 50 worst carbon plants in the country put out more 
carbon than Korea, and Korea is a pretty industrialized 
country. We are seeing these effects in New England.
    Senator Sessions was pleased to bring up that there was 
actually additional rain falling in the Northeast, not only is 
there additional rainfall in the Northeast just as the climate 
projections expect, but it is falling in more powerful rain 
bursts, just as the climate experts predicted, and those more 
powerful rain bursts are causing repeated damaging flooding. We 
have had year after year of hundred-year floods in Rhode 
Island, we had one that hit the 500-year level, in Cranston, 
Rhode Island, and it just keeps coming.
    Like Senator Merkley, we are an ocean State, and we are 
seeing dramatic changes in our oceans. And people can quibble 
and quarrel at the far, remote fringes of the scientific 
debate, but tell that to our fishermen. We had a very nice guy, 
Chris Brown, head of the Rhode Island Commercial Fisherman's 
Association, Mr. Cohen, you spoke about this, I will echo what 
you said, Chris is a fisherman. He grew up on the ocean. His 
dad and his granddad were fishermen. This is his life, and 
here's what he said when he came to testify for us: ``I fish on 
a much different ocean today than when I first started fishing 
with my grandfather as a boy in the mid-1960s.'' Not that long 
ago. ``When I started out catching haddock, in to the water 
around point Judith, it was commonplace. The last year, I 
caught only two. Regularly caught in Rhode Island now is the 
species of croaker, grouper, cobia, drum, and tarpon. My 
grandfather never saw a single one of these in his entire life 
as a fisherman.''
    As another fisherman said to me, Sheldon, it is getting 
weird out there. And it is not just Rhode Island waters, I 
traveled through the South Atlantic over the break, and they 
told me that off Charleston, they are catching snook. Snook is 
a fish you used to have to go down to Fort Lauderdale to catch. 
Now they are catching snook off of Charleston, and it is 
working its way up. Red fish are being caught as far north as 
Cape Cod.
    And in case the warming oceans and the moving around of the 
fisheries and all of that upheaval in the natural order isn't 
enough, against Rhode Island shores, the oceans are 10 inches 
higher than in the 1930s. Sooner or later another hurricane 
like the Hurricane of 1938 is going to come and give us a 
punch.
    I ask my colleagues if you are genuinely interested in this 
issue, spend 10 minutes for my sake on Google looking at the 
images of what happened to my State in the hurricane of 1938. 
Then imagine what happens when that 10 inches that is there now 
and wasn't then of additional sea level gets stacked up further 
by storm surge and thrown against our shores. It is a potential 
catastrophe. The idea that I am supposed to overlook this is 
preposterous, and the idea that my side of the ledger doesn't 
count and the only side of the ledger that counts is jobs in 
the coal industry or jobs in the oil and gas industry is 
equally preposterous.
    The science out there has become spectacularly clear, even 
though there remains a fringe. But it is not a fringe that any 
rational person would put a bet on in their real lives in any 
other circumstance.
    So I want to conclude by thanking Senator Merkley for this 
program, I want to thank Mr. Cohen for his testimony about 
these fisheries. We are way past a debate on whether this is 
real. This is happening in people's lives now in ways that are 
unprecedented, and we have got to get responsible about doing 
something about it.
    I thank the Chairman.
    [The prepared statement of Senator Whitehouse follows:]

                 Statement of Hon. Sheldon Whitehouse, 
              U.S. Senator from the State of Rhode Island

    Today the Committee will discuss how American jobs that 
depend on our natural resources are being affected by climate 
change. I want to thank Chairman Merkley for drawing attention 
to this issue.
    From Rhode Island's Narragansett Bay to the national 
forests of Oregon, nature's bounty provides us with life's 
essentials: clean air and water that sustain us; crops and 
timber that support industries like food production, 
manufacturing, and textiles; and the healthy, diverse wildlife 
that has always been part of outdoor recreation and tourism in 
this country. Climate change threatens to rob us of that.
    Yesterday, EPA proposed rules to limit the climate altering 
greenhouse gas pollution spewed from existing power plants. And 
already we've heard the same tired arguments from the big 
polluters and their Republican allies: The polluters are 
calling this part of a ``war on coal'' that will kill jobs and 
impose unfair costs on industry. Don't believe them. Their 
claims are exaggerated at best, and flat-out false at worst--
and they always look at only one side of the ledger, ignoring 
the effects of carbon pollution on the rest of us.
    On the other side of the ledger are real, measurable costs 
for American citizens: damage to coastal homes, businesses, and 
infrastructure from rising seas and erosion; missed work days 
due to respiratory ailments triggered by smog; forests dying 
from beetle infestations and swept by unprecedented wildfire 
seasons; farms ravaged by worsened drought and flooding. This 
side of the ledger counts, too, and damage to hunting and 
fishing is on it.
    I want to particularly mention the toll climate change is 
already taking on the fishing industry, both commercial and 
recreational. Our oceans are ground zero for damage from carbon 
pollution. The oceans are warming. That's a measurement, not a 
theory. Sea level is rising. That's another measurement. Oceans 
are becoming more acidic. Again, a measurement, not a theory or 
projection.
    These changes are putting the natural order into upheaval. 
Some species are moving toward the colder water of the North 
and South Poles, shifting as quickly as 10 to 45 miles per 
decade. Events timed for spring and summer, like egg laying or 
migration, are happening earlier--about 4 days per decade.
    Rhode Island Commercial Fishermen's Association President 
Chris Brown testified at an EPW subcommittee hearing recently. 
Chris's livelihood depends on the oceans. He put it like this: 
``I fish on a much different ocean today than when I first 
started fishing with my grandfather as a boy in the mid-1960s. 
When I started out, catching haddock in the waters around Point 
Judith was commonplace. . . . Last year I caught only two. . . 
. Regularly caught now in Rhode Island are the species of 
croaker, grouper, cobia, drum, and tarpon. My grandfather never 
saw a single one of these in his entire life as a fisherman.''
    He continued: ``The wild caught fisheries of the Northeast 
may ultimately prove to be the `coal miner's canary' for this 
Nation as we grapple with the issue of climate change. A 
reconsideration of strategy is called for given the enormous 
chasm between what we have endured and what we have gained.''
    On a recent trip through the Southeast, I met with 
fishermen in South Carolina who told me that snook are now 
being caught off the coast of Charleston. And I've heard that 
redfish are being caught as far north as Cape Cod. This is new 
in these fishermen's lifetime. As another Rhode Island 
fisherman told me, ``It's getting weird out there.''
    On the West Coast, as Senator Merkley knows, acidified 
ocean waters wiped out three-quarters of the oyster larvae at a 
hatchery in Oregon and crashed wild stocks in Washington State.
    Recent research led by NOAA scientists found that ocean 
acidification off our West Coast is hitting the pteropod 
especially hard. Pteropods are tiny marine snails that are food 
for salmon, mackerel, and herring. They are the base of the 
food chain. No pteropods means crashed salmon, mackerel, and 
herring fisheries. Dr. William Peterson, an oceanographer at 
NOAA's Northwest Fisheries Science Center and co-author of the 
study said, ``We did not expect to see pteropods being affected 
to this extent in our coastal region for several decades.'' For 
several decades.
    Without a doubt, these drastic changes put the jobs and 
livelihoods of fishermen at risk. And if you want to look at 
mammals, look at New Hampshire moose, dying with 50,000-100,000 
ticks on them, because of less snow. Do not talk to me about 
the coal jobs at risk unless you're willing to talk to me about 
what carbon pollution is doing to us, on the other side of the 
ledger.
    I look forward to today's discussion.

    Senator Merkley. Thank you very much, Senator Whitehouse.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and thanks to our 
witnesses.
    First of all, I am sorry I came too late for the first 
panel featuring Director Ashe. On February 25th, when he was 
last before the committee, I had asked him questions, some 
important questions, I think, regarding the consultation under 
the Endangered Species Act with regard to EPA's new proposals 
regarding existing power plants. His job is about endangered 
and threatened species and understanding impacts on that. 
Clearly, these new regulations have the potential for major 
impacts on that.
    I asked him if he and EPA were consulting under the law 
because of that. He didn't know, he didn't have answers; I 
asked him to follow up. He has not followed up. I sent a letter 
to him and Administrator McCarthy regarding this mandated 
consultation on March 6th. I have gotten no response. So I will 
continue following up, but that is his job, this is a major set 
or regulations, and we do expect answers about their 
responsibility for consultation.
    Now in terms of questions, Dr. South, I share your concern 
that every weather item in the news it seems is sort of held up 
as the newest example of the impact of climate change with no 
real science behind that asserting, and this is also true of 
wildfires. Just recently, for instance, the Democratic Majority 
Leader Harry Reid claimed that global warming was the cause of 
increased wildfires, pure and simple. You testified about that. 
If you can go back and underscore, what do you think the 
science, the historical records lays out in terms of any trends 
over time regarding wildfires, No. 1, and No. 2, what do you 
think are the leading causes of any trends that do exist?
    Mr. South. Those who claim that CO<INF>2</INF> causes 
additional wildfires are not making scientific statements. 
Instead, they are being easily fooled by journalists. Wildfires 
have typically been associated with droughts and with forest 
conditions that make wildfires more probable. The chart that I 
showed showing a lot of wildfires in the 1930s before we 
started having really active wildfire fighting forces gives you 
an idea of how cyclic it can be. The downward trend that you 
see is caused by humans. Our activity is trying to fight the 
fires. The urban sprawl that has resulted in people building 
houses in the forest has my view and others taking manpower 
away from fighting fires and into protecting homes. And this 
can increase the size of the wildfire that they happen to be 
working on.
    So, spending more time on preventing houses from catching 
fire and taking the time away from attacking the front causes 
the size of the fire to be larger.
    Senator Vitter. Also in this area, what are your thoughts 
about current management of our forests and that factor 
regarding wildfires?
    Mr. South. Well, we have the general view of the public. We 
are starting to let the public manage our forests instead of 
letting foresters, and when the public causes litigation, 
delays, thinning practices, delays, fuel wood reductions, 
activities, we get a buildup of fuels and an increased risk of 
wildfires. So by enacting polices that lock up wilderness areas 
decreases harvesting rates. We used to harvest about 12 billion 
board feet per year off of a national forest and that has 
dropped down to nothing now. So our national forests are 
getting bigger, and this is all causing for more catastrophic 
wildfires when they do occur.
    Senator Vitter. OK, thank you.
    Senator Merkley. Thank you very much, Senator Vitter.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. I have to say 
this: I have not today nor have I ever in a committee hearing 
insulted the integrity of witnesses on the other side of an 
issue, and we have come perilously close to that in this 
committee today. It has been suggested by my friend from Rhode 
Island that Dr. South and Dr. Legates are part of a fringe. To 
me, this is the very kind of public intimidation and insulting 
rhetoric that Professor Legates has talked about in having 
experienced at the University of Delaware, and I take exception 
to it.
    Now, Dr. Legates, you are a signatory of the Oregon 
petition, are you not?
    Mr. Legates. Yes, sir.
    Senator Wicker. That Oregon petition says there is no 
convincing scientific evidence that human release of carbon 
dioxide and methane or other greenhouse gases is causing or 
will in the foreseeable future catastrophic heating of the 
Earth's atmosphere and disruption of the Earth's climate. I 
assume this is some petition that you and some fringe 
scientists from Oregon got together and signed. Is that 
correct?
    Mr. Legates. No, I believe there are thirty-some thousand 
people who signed that petition.
    Senator Wicker. Thirty-some thousand people. Would you 
describe these people?
    Mr. Legates. Many of them are scientists, Ph.D.s in other 
disciplines, or people who are connected with climate change 
and doing research in various areas associated with it.
    Senator Wicker. Well, I just have to say that I appreciate 
someone standing up and challenging the conventional wisdom. 
Martin Luther did that. Martin Luther King did that. I 
appreciate some people who are willing to hold up their hand 
and say, wait a minute, I have some data here, and I would like 
to suggest a contrary position.
    Mr. Legates. Well, I would not put myself quite in that 
category.
    Senator Wicker. Well, but it is an important issue, and I 
have to say I admire you for standing up, and Dr. South also, 
for standing up, and saying you have a right to be heard and a 
right to be listened to and a right not to be insulted by being 
called part of a lunatic fringe. Now, you have concluded that 
droughts in the United States are more frequent and more 
intense during colder periods. Is that correct?
    Mr. Legates. Yes, that is what the data indicates. When we 
look at droughts over the last 2,000 years, they tend to become 
more intense and more frequent when the temperatures have 
become colder.
    Senator Wicker. Dr. South, you have offered a couple of 
bets to your fellow scientists over time. Is that correct?
    Mr. South. Yes, sir.
    Senator Wicker. I believe, 5 years ago, you offered a bet 
on an ice-free Arctic in the summer of 2013, when a BBC 
journalist wrote a 2007 article entitled Arctic Summers Ice-
Free by 2013. And several ice experts declined to bet with you. 
Is that correct?
    Mr. South. That is correct.
    Senator Wicker. If they had bet with you, they would have 
lost that bet. Is that correct?
    Mr. South. That is correct.
    Senator Wicker. You currently are offering a bet on sea-
level rise. Would you tell the committee about that?
    Mr. South. Yes. I am looking for someone who would be 
willing to bet $1,000 on the sea-level increase for the year 
2024 in Charleston, South Carolina. The rate currently is 
around 3.15 millimeters, I do not know how they do that to the 
nearest hundredth of a millimeter, but you can do it 
mathematically; I do not know how you can do it scientifically. 
I will bet that the rate 10 years from now is not over 7 
millimeters. If a 7-millimeter rate starts now and goes to the 
year 2100, it would equal about a 2-foot increase. Many people 
are talking about a 14-millimeter rate being equivalent to a 4-
foot increase. So I am essentially betting that for the next 10 
years, it will be not increasing at a rate that would equal a 
2-foot increase by the year 2100, but I am not going to be 
living that long, so I cannot win that bet.
    Senator Wicker. Would this bet apply to your heirs and 
assigns?
    [Laughter.]
    Mr. South. Yes, it would.
    Senator Wicker. Thank you very much. We have had a good 
hearing, and there are people watching this, and there will be 
people late at night, Mr. Chairman, watching this hearing, that 
are suffering from insomnia, and perhaps someone will take Dr. 
South up on his bet.
    Senator Merkley. Thank you very much to all of our 
witnesses. I appreciate you bringing your expertise to bear. We 
have heard today that climate change is having impacts on the 
ground right now; that it is not an abstract theory; it is not 
about models, decades, or multiple decades into the future; 
that the changes on the ground right now are real and 
measurable, and they are affecting American's livelihoods, and 
farming, and hunting, and fishing, and forestry. These are real 
jobs and real impacts on this generation and the next.
    We have heard about bark beetle infestations; we have heard 
about migrations of fish; we have heard about the impact of 
intensifying wildfires, the impact of magnified droughts, the 
impact of more acidic oceans in the Pacific and their impact on 
oyster reproduction. I just have to wonder, if baby oysters are 
having trouble forming a shell, how many other shellfish 
impacts are there that are going to be problematic for the food 
chain in our oceans and our fisheries? These things are real at 
this moment, and they confront us with evidence that must not 
be ignored.
    Certainly, this is in the context of a debate at this 
moment about specific measures that we might take to limit 
carbon dioxide, including that from coal fire to power plants. 
The cost of ignoring climate change will continue to increase. 
The costs are real; the costs are tangible; they will affect 
jobs, and they affect our rural resources. With this challenge 
in mind, I really appreciate the testimony before this 
committee today. Members of the committee will have 2 weeks 
from today to submit additional written questions to the 
witnesses, and I would certainly ask if you receive such 
questions that you respond, and we will make sure the answers 
are circulated.
    With that, the meeting is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
 
                        [all]                               
</pre></body></html>
